<html>
<title> - IMPLICATIONS OF IRAQ POLICY ON TOTAL FORCE READINESS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                          [H.A.S.C. No. 110-7]
 
          IMPLICATIONS OF IRAQ POLICY ON TOTAL FORCE READINESS

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            JANUARY 23, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13





                     U.S. GOVERNMENT PRINTING OFFICE

37-307 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
MARTY MEEHAN, Massachusetts          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               HOWARD P. ``BUCK'' McKEON, 
VIC SNYDER, Arkansas                     California
ADAM SMITH, Washington               MAC THORNBERRY, Texas
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MIKE McINTYRE, North Carolina        ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        KEN CALVERT, California
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
JAMES R. LANGEVIN, Rhode Island      JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK UDALL, Colorado                 MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              CANDICE S. MILLER, Michigan
NANCY BOYDA, Kansas                  PHIL GINGREY, Georgia
PATRICK MURPHY, Pennsylvania         MIKE ROGERS, Alabama
HANK JOHNSON, Georgia                TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     THELMA DRAKE, Virginia
JOE COURTNEY, Connecticut            CATHY McMORRIS RODGERS, Washington
DAVID LOEBSACK, Iowa                 MICHAEL CONAWAY, Texas
KIRSTEN GILLIBRAND, New York         GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
GABRIELLE GIFFORDS, Arizona
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                 Debra Wada, Professional Staff Member
                Lynn Williams, Professional Staff Member
                   Margee Meckstroth, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Tuesday, January 23, 2007, Implications of Iraq Policy on Total 
  Force Readiness................................................     1

Appendix:

Tuesday, January 23, 2007........................................    73
                              ----------                              

                       TUESDAY, JANUARY 23, 2007
          IMPLICATIONS OF IRAQ POLICY ON TOTAL FORCE READINESS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Allison, Ciaran T., A Co. 2-23 In, Ft. Lewis, Washington, U.S. 
  Army; Anel Zimmerman, Spouse of Gunnery Sgt. Chad Zimmerman 
  from the 3rd Battalion, 4th Marines, Twentynine Palms, 
  California; and Cori Shuster, Spouse of Lt. Col. Scott Shuster, 
  Commanding Officer of 3rd Battalion, 4th Marines, Twentynine 
  Palms, California, beginning on page...........................    50
Conway, Gen. James T., Commandant, U.S. Marine Corps.............     7
Schoomaker, Gen. Peter J., Chief of Staff, U.S. Army.............     4

                                APPENDIX

Prepared Statements:

    Conway, Gen. James T.........................................    83
    Schoomaker, Gen. Peter J.....................................    77

Documents Submitted for the Record:

    Sources say case workers for wounded laid off, by Karen 
      Jowers, January 20, 2007...................................    95

Questions and Answers Submitted for the Record:

    Mr. Johnson..................................................   100
    Mr. McHugh...................................................    99
    Mr. Skelton..................................................    99
    Mr. Taylor...................................................    99
    Mr. Wilson...................................................   100
          IMPLICATIONS OF IRAQ POLICY ON TOTAL FORCE READINESS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Tuesday, January 23, 2007.
    The committee met, pursuant to call, at 10 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. The Armed Services Committee will now come to 
order.
    We thank you for your attendance, General Schoomaker and 
Commandant Conway. Thank you very, very much for joining us. We 
appreciate it. And today our committee will hear your testimony 
on how the President's recent proposal to increase troops in 
Iraq will increase our readiness posture and the military and 
strategic risks it will entail.
    Two quick things: I understand that our friend John Kelly 
has just been named for a second star. I hope that is more than 
just a rumor. Congratulations. We here in the House feel that 
we got him ready for the rest of the Marine Corps and the rest 
of his duty when he had his legislative duties downstairs.
    And also it is interesting to note last evening after I 
left the House, I went back and I was flipping on television, 
and I found this movie on George Armstrong Custer. And the 
uniform, the blue uniform he was wearing at that time in the 
battle, was the same uniform that you now call your present and 
future Class A. So let me compliment you and thank you for 
wearing them for the very first time here in our committee 
room; it is a look backward in history, and I think it is very, 
very appropriate.
    We are now looking at an alternate course in Iraq. We are 
looking at the opportunity for Members and the American people 
to understand the ramifications of the President's proposed 
policy on those units and their training and their readiness.
    In July of last year, General Schoomaker, you will recall I 
asked if you were comfortable with the readiness units in the 
United States and your answer was ``no.'' I am very interested 
in learning what your opinion is today and what effect the 
President's new proposal will have on readiness as we go 
forward.
    Now, based on your previous testimony, General Schoomaker, 
you may recall Congress had some $17 billion on the leadership 
of our chairman, then Duncan Hunter, to reset the Army 
equipment that was becoming so worn. And we need to know what 
additional reset money, if you have an opinion today, for the 
future for both the Army and the Marine Corps will have to be.
    We also look forward to hearing from you on the strategic 
implications that such a policy might have on the overall 
defense posture. This hearing will be an opportunity for us to 
explore the second and third possible order effects that may 
result from the proposed troop increase. For example, how will 
the proposed troop increase affect unit and individual 
training? How will units be equipped for the fight, given the 
equipment shortages being experienced here in the United 
States?
    We are also interested in learning more about how the 
increase in troop levels in Iraq could affect the morale of the 
troops and their families and what the services are doing to 
address potential recruiting and retention challenges that 
arise.
    The war in Iraq, as we all know, has placed a large burden 
on our reserve and National Guard forces. I hope you will take 
this opportunity to explain more about the recent policy change 
in the remobilization and its impact. I understand the Army and 
Marine Corps are doing their best to address these concerns.
    Today's hearing will also include a second panel of 
witnesses. This is very important, and that is why I am hoping, 
number one, that you will keep your remarks--the entire remarks 
will go into the record--keep your remarks to four minutes, if 
possible; and, again, our committee has been doing a very good 
job, staying within the five-minute rule.
    But we will urge them to continue that because we have a 
second panel, First Sergeant Ciaran T. Allison, who is 
stationed at Fort Lewis, Washington, who is with a unit that 
has been notified they will be deploying earlier than intended. 
And we have two Marine spouses whose husbands are with a combat 
unit that will be extended to support the increased troop level 
in Iraq.
    These individuals are directly affected, and we look 
forward to their testimony, so I certainly hope we can reach 
them as quickly as possible.
    Generals, these are important subjects, and we need to 
understand. I look forward to hearing from you.
    I want to remind our members that this is an open session, 
and Generals Schoomaker and Conway may not be able to answer 
certain questions of a sensitive nature that could only be 
answered in a closed, classified setting. I urge members to 
remain and return for our second panel and, remember, we will 
strictly adhere to the five-minute rule.
    And now for his remarks, Mr. Hunter, the Ranking Member.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERFVICES

    Mr. Hunter. Thank you, Mr. Chairman. And thanks for holding 
this hearing which is very timely and very important.
    And, General Schoomaker and General Conway, thank you for 
everything you have done for our country and for your 
leadership of our troops.
    Mr. Chairman, you have focused appropriately on this 
readiness issue, and one thing that I would like to elicit and 
to engage in as we go through the testimony, gentlemen, is the 
reset.
    Now, last year both of you came to us, when we were well 
past the initial markup stages of the defense bill, and said, 
we are going to need a lot more money to reset and that means 
basically to repair the tanks, trucks, aircraft that are 
utilized in the warfighting theaters and have been run pretty 
strongly and need lots of repair. And we asked you to come in 
and give us every dime of what you thought you needed, and you 
did that and did, I thought, a good job of it.
    We went over that largely in classified session, to some 
degree in open session, and you gave us your requirements and 
we funded every dime. At least my directions and the ranking 
member's directions to our staff were to fund every dime and 
come up with what ultimately was--after you took out the amount 
of reset that was embedded in the President's budget and what 
was in the supplemental, the balance that was unfunded, we 
added together and we came up with a package. It was right at 
$20 billion.
    And the Appropriations Committee followed us. The Senate 
did the same thing. And we ended up with the President's 
signature on that funding package.
    Now, in November, when I checked, I looked at how much had 
been obligated. It was a fairly low number. I think it was 3.8 
billion about halfway through November, and that bothered me 
because this message that you gave us was one of some urgency; 
and one thing that we looked at before we engaged in markup, 
the reset requirement, was checking our industrial base, mainly 
our depots, to find out if we had the capacity to execute, 
because the worst game in show business in this town is to come 
up with funding and then come up with a nonexecution status on 
the moneys that we have directed to the reset.
    When we looked across the depots, the array of depots in 
the country that will be relevant to reset, most of them had 
lots of capacity, around 50 percent. So we said, okay, we have 
got plenty of depot capacity; we can do this.
    So one thing I would like you to address today is how far 
down the line we are and should we surge the depots. Because 
the depot manager, who comes out of a business school, often 
likes to see a gradual glide path in terms of hiring, in terms 
of contracts, so that he has an operation which is smooth and 
is long lasting.
    Exigencies of war require lots of people and lots of 
contracts working very quickly and in large numbers even though 
sometimes you lose economies of scale and economies of what I 
would call ``gradualism,'' but you get stuff prepared fast.
    So I would like your opinion on whether we should be 
accelerating the reset so that we have got that old fire engine 
back in the firehouse ready to go to the next fire as soon as 
possible.
    Second, Mr. Chairman, I would like the gentlemen to tell us 
a little bit about their thoughts on the President's plan, the 
Baghdad plan, the several Iraqi battalions out in front with 
the American battalion as a backup and the prospects for using 
that plan as a blueprint to get all of the Iraqi battalions, 
which we see as 129 battalions on paper, trained and equipped, 
to get them rotated into the operational setting so that every 
one of them, even if they come from a quiet area in Iraq, from 
one of the nine provinces where there is very little going on, 
get them some operational experience so, you know, number one, 
they will come when called, they have got a chain of command 
that responds to the Ministry of Defense, number two, they have 
some combat effectiveness.
    So if you could comment on the President's plan and whether 
you think it has got potential to be used as a pattern with 
which we could stand up the entire Iraqi force and give them a 
stand-up which is capabilities based because they will have 
operational experience, rather than geographically based 
because they are located in a certain part of the country.
    So give us your take on that if you would.
    Last, thank you for calling the family members of folks who 
have deployed and are experienced in this high operations tempo 
(OPTEMPO). That plays an important part in our responsibility 
to take care of those families, to oversee the setting in which 
they operate; and I am interested in new insights.
    So thank you, and I look forward to the hearing.
    The Chairman. Mr. Hunter, thank you very, very much.
    Gentlemen, you may proceed with your summarized version of 
your more lengthy testimony.
    General Schoomaker.

  STATEMENT OF GEN. PETER J. SCHOOMAKER, CHIEF OF STAFF, U.S. 
                              ARMY

    General Schoomaker. Mr. Chairman, and distinguished members 
of the committee. On behalf of the Secretary of Army, Dr. 
Francis Harvey, and the more than one million active guard, 
reserve soldiers and civilians of the United States Army 
serving around the globe, I welcome the opportunity to and 
thank you very much for this opportunity to be with you today 
and talk about the need to improve Army readiness, to increase 
strategic depth and to decrease our overall risk.
    We are in very dangerous and uncertain times, as we have 
talked many times before, and as you know, current demands 
exceed the strategy that was outlined in the Quadrennial 
Defense Review.
    Strategy involves establishing a proper balance amongst 
ends, ways and means and policy; and strategy discussions often 
focus very much on the ends and the ways and fail to 
sufficiently address the means. The recent decisions by the 
President and the Secretary of Defense to grow our ground 
forces and to assure access to all components of our force will 
help us to establish the balance required to meet and sustain a 
level of strategic demand by Army forces by providing 
additional means.
    We have received considerable support from this committee 
and the Congress to increase the readiness of our Army. As a 
result, the soldiers we have deployed into current theaters in 
operation are the best trained, best equipped and best led that 
we have ever put in harm's way. As I explained in the testimony 
before this committee last June, our immediate challenge lies--
the immediate challenge lies in the readiness of the 
nondeployed forces. We will need your continued support in six 
key areas that I would like to outline for the record to 
restore the strategic depth of our Army necessary to respond 
decisively to potential strategic contingencies.
    First, recent decisions to expand the Army reflect a clear 
recognition of the dangers we face and the strain that five 
years of sustained demand placed on the all-volunteer forces. 
We plan to grow six new brigade combat teams and enabling 
organizations in our active components and other enabling 
components in Army National Guard and Army Reserve. This will 
expand our rotational pool to 76 brigade combat teams and more 
than 200 enabling organizations in the operational force of the 
total Army. Our goal is to provide a continuous supply of 20 to 
21 brigade combat teams to meet global commitments.
    We remain committed to generating whole, cohesive units 
that are fully manned, trained and equipped, that are fully 
ready for the challenges they will face. This will require a 
national commitment to sustain the predictable resourcing over 
time and to build our force in a balanced, coordinated fashion 
while providing adequately for the needs of our all-volunteer 
soldiers and their families.
    Second, in the near time to prosecute the long war and to 
sustain the full range of our global commitments, we must have 
all components of the Army--active, guard and reserve--ready 
and able to deploy together.
    The changes in reserve component mobilization policies, 
recently announced by Secretary Gates, are essential. Our 
reserve components comprise 55 percent of our Army's 
capabilities. We must fully enable them to perform their new 
role as an integral part of our deployable force. These new 
policies will provide predictability and facilitate the 
deployment of trained, ready and cohesive units, while 
decreasing the burden on our soldiers and their families. We 
are working to implement these changes rapidly and will require 
continued congressional support to do so.
    Third, with the support of this committee and the Congress, 
we have been provided the resources needed to restore battle 
losses and repair worn equipment through an aggressive reset 
program. We are well ahead of schedule in executing these funds 
in fiscal year 2007. In just the first quarter, we have already 
obligated $10 billion of the $17.1 billion appropriated.
    As I testified last year, we anticipate that our fiscal 
year 2008 will be approximately $13.5 billion, a figure that 
will increase as we plus up forces in current theaters of 
operation and increase the size of our Army. Because the 
replacement of equipment can take up to three years following 
the commitment of funds, we seek to make that funding available 
to use as soon as possible. To overcome the unprecedented 
stress being placed on our equipment today, reset funding will 
be required for a minimum of two to three years beyond the 
duration of the current conflict.
    Fourth point: With your support, we have made great 
progress in increasing soldier and unit effectiveness through 
our modernization efforts. As I have said before, we have 
historically entered conflicts flatfooted. This current 
conflict is no exception. Investment accounts were underfunded 
by approximately $100 billion in the previous decade, resulting 
in nearly $56 billion in equipment shortages across the Army.
    To meet combat commanders' immediate needs, we pulled 
equipment from across the force to equip soldiers deploying in 
harm's way. This practice, which we are continuing today, 
increases risk for our next-to-deploy units and limits our 
ability to respond to emerging strategic contingencies.
    The changed conditions of warfare necessitate that we can 
no longer assess risk and how we equip our combat support and 
combat service support units. There are no front lines in 
today's battle space. We must equip all units with force 
protection, night vision goggles, crew served weapons, radios 
and other critical items needed to operate.
    Your continued support is helping to fix what I call 
``holes in the force.'' I ask you to increase your support for 
this effort as we work to break this historical cycle of 
unpreparedness. We must remain committed to investing in 
technologies and equipment that enable our most important 
asset, the soldier, to remain ahead of our adversaries, who are 
constantly adapting to our methods, tactics and tools of 
warfare. Investing sufficiently in our future readiness is a 
strategic necessity which must be viewed as a matter of 
priority, not just affordability.
    Fifth, our ability to grow the force to meet rotation 
requirements is jeopardized today by our inability to execute 
nearly $6 billion worth of scheduled military construction. We 
have developed a carefully synchronized, closely knitted 
stationing plan to enable us to meet our global commitments 
while fighting the long war. Current delays in funding military 
construction projects contained in the 2007 Military Quality of 
Life and Veterans' Affairs Appropriations bill limit our 
ability to build our modular force and to deliver quality-of-
life improvements which our soldiers and families both need and 
desire.
    I have addressed my concern in two separate letters. In 
November, I coauthored a 16 star letter with the other service 
chiefs, and in December, Secretary Harvey and I reemphasized 
the impact of this delay. I recently requested to speak with 
Speaker Pelosi to emphasize how imperative it is to pass this 
legislation without delay, especially now while we are at war. 
To properly house, train, and prepare our soldiers, we need 
Congress to pass the appropriations bill or amend continuing 
resolution language to permit execution of all military 
construction and BRAC projects requested in the 2007 
President's budget.
    Sixth, we will require access to supplemental funding for 
fiscal year 2007 by April, and possibly sooner, to properly 
sustain the Army. We cannot repeat last year's near disastrous 
``cash flow'' experience and meet the increased operational 
demands now facing us. For fiscal year 2008 and beyond, we must 
fully resource the Army to enable it to flow as projected.
    We are continuing to work with the Department of Defense 
(DOD) to revise our equipment and investment strategy and to 
obtain the additional resources needed to support that 
strategy. These requirements should be transmitted in the 
fiscal year 2008 President's budget. I ask you to increase 
funding for these necessary requirements.
    The fundamental challenge impacting Army readiness and 
strategic depth is the need to establish a proper balance 
between strategy and resources. Had we funded the Army to 
requested levels in recent years and endorsed policies to 
ensure access to all of our capability, we would be in a better 
strategic posture today.
    I am greatly encouraged by the actions of the Congress, the 
President and the Secretary of Defense, which reflect clear 
recognition of the compelling need to rectify our situation. I 
look forward to working with this Congress to enhance the 
readiness and strategic independence of our Army.
    Mr. Chairman, thank very much. That concludes my oral 
statement.
    [The prepared statement of General Schoomaker can be found 
in the Appendix on page 77.]
    The Chairman. Thank you, General Schoomaker. It is 
interesting to note that from the very seat you are now 
occupying, Lieutenant General Ted Stroup in 1995 testified the 
need for adding an additional 40,000 soldiers to the United 
States Army, and we are finally getting there. I hope someone 
picks up the phone and calls the general and thanks him for his 
foresight.
    And General Conway.

  STATEMENT OF GEN. JAMES T. CONWAY, COMMANDANT, U.S. MARINE 
                             CORPS

    General Conway. Chairman Skelton, Representative Hunter and 
distinguished members of the committee, thank you for the 
opportunity to appear before you today on behalf of the men and 
women of the United States Marine Corps.
    The Marine Corps is currently engaged in what I believe is 
the first battle in the long war against Islamic extremists. 
Alongside our fellow servicemen and women, we have been in that 
fight now for almost five years. Though the troops in the 
operating forces are being pushed hard by the operational tempo 
and the frequency of deployments, morale has never been higher 
because they believe they are making a difference.
    They also believe, ladies and gentlemen, that the people of 
the United States and its Government are behind them. The 
evidence of that support is everywhere to be seen: the fielding 
of new materiel and equipment to make their mission success 
more certain and protect them from enemy blasts, the reset of 
the force so as to be able to accomplish missions, follow-along 
missions throughout the globe and, most recently, the request 
by the Secretary of Defense to grow our end strength.
    While the morale of our Marines remains high, we also see 
leading indicators that the impact of multiple deployments on 
Marines and their families is being felt. More significantly 
for the Nation, we believe our training, our other missions are 
also being impacted.
    The recently proposed increase in our end strength to 
202,000 active duty Marines will go a long ways to reducing the 
strain both on the individual and the institution. If this end 
strength is approved, we will grow our Corps approximately 
5,000 per year. This plan will gradually decrease the 
deployment-to-dwell ratio of some of our low-density, high-
demand units. Currently, many of these units are deployed for 
seven months and home for only five months before they return 
to combat.
    Because over 70 percent of our end strength consists of 
first-term Marines, we are making plans for the necessary 
increased recruiting and retention, which will be challenging. 
We will need the continued support of Congress for enlistment 
bonuses and other programs, such as advertising, which will be 
essential for us for meeting these growth challenges.
    This end strength increase is separate from, indeed it 
predates the plus-up operation that has been directed in Iraq. 
For this operation, approximately 4,000 Marines are affected. 
Three of our combat formations will be extended by some 45 to 
60 days. These extensions have already impacted our Marines and 
their families, but we have been emphatic about keeping our 
families informed about the details. We believe that unit 
programs and family support systems in home stations will help 
our people meet the challenges associated with the extension.
    I am glad you asked the two spouses of our affected 
battalion, 3d Battalion, 4th Marines, to join you later today. 
The voices of our families are heard loud and clear in our 
headquarters, and I appreciate they will be represented today 
in the Congress as well.
    On the issue of equipment readiness, with your help over 
the last two years we made substantial progress, but there is 
still much to be done if we are able to win the current fight 
and respond to other challenges that face the country. We have 
the right processes in place to reset our force as well as make 
additional equipment purchases and, of course, when it makes 
sense, will procure next-generation equipment to keep pace with 
technology improvements.
    Chairman Skelton and Congressman Hunter, thank you for the 
opportunity to report to you on behalf of the valiant men and 
women of our Corps. They remain committed to the mission and 
know the American people and its Government will support them 
in its endeavor. Your Corps stands ready to serve in any time 
and place, but your continued support remains a vital and much 
appreciated foundation to the service.
    I look forward to the questions of the committee.
    The Chairman. General, thank you very, very much.
    [The prepared statement of General Conway can be found in 
the Appendix on page 83.]
    The Chairman. Let me ask General Schoomaker once again, are 
you comfortable with today's readiness of the United States 
Army that is within the United States today?
    General Schoomaker. Sir, I have continued concerns about 
the nondeployed forces, as I stated in my statement. I have no 
concerns about how we are equipping, training, and manning the 
forces that are going across the berm into harm's way, but I 
still have continued concerns about our armed manual readiness.
    The Chairman. General Schoomaker, based upon our recent 
announced deployment and increase in troop level in Iraq, what 
impact will that have upon our readiness in strategic risks, in 
other words, our ability to fight elsewhere if called upon?
    General Schoomaker. Sir, obviously it puts continued 
pressure, increased pressure upon the nondeployed forces.
    The Chairman. General Conway, I ask you the same two 
questions: Are you comfortable with the level of readiness of 
the Marines that are within the United States today?
    General Conway. Sir, I cannot say that I am comfortable. I 
will talk somewhat around it because we are in open session, 
but suffice to say that we have examined other war plans and 
our capability to respond to those plans, and we see that we 
are lacking in some areas with our ability to do so.
    The Chairman. Are we running a strategic risk if the 
Marines were called upon to fight elsewhere today?
    General Conway. Sir, we feel that there is risk. We feel 
like--that we would be able to respond with those forces that 
are not committed to Iraq or Afghanistan, that the response 
would be slower than we might like, would not have all of the 
equipment sets that ordinarily would be the case; and there are 
certainly risks associated with that.
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    General Conway, of the 21,500 reinforcements that are being 
sent to Iraq, 4,000, as I understand, are going to the Al Anbar 
Province; is that correct?
    General Conway. That is correct.
    Mr. Hunter. Tell us a little bit, in a general way, about 
why you need those 4,000 Marines.
    General Conway. Sir, I really believe, after having visited 
there just after the Christmas holidays, that we are going to 
be reinforcing success in the Al Anbar Province. Things are 
going quite well out on the border in a place called Al Qa'im, 
where I think the Marines have brought that success; and 
likewise, in Ramadi I was somewhat surprised to see things are 
as encouraging as they are there from the efforts of both the 
Army brigade and some great Marine battalions that are in the 
region.
    So I think that in this instance, the commitment of 
additional forces is timely, and that they will be able to 
assist the commander in reinforcing the success that they are 
seeing in these areas of operation.
    Mr. Hunter. And are the Marine commanders on the ground 
there, are they the folks who wanted additional Marines to come 
out?
    General Conway. That is correct, sir.
    In conversation with General Zilmer while I was there, on 
the concept, of course, there was a wide range of options; and 
in discussion at the time, he indicated that he could use some 
help, but did not think that he needed as much as was being 
talked about in some of the planning. But he felt a couple of 
battalions could make a significant difference.
    Mr. Hunter. Thank you.
    Gentlemen, General Schoomaker, I understand that you have 
obligated now the ten billion dollars of the additional moneys 
that we have funded for reset. Have you taken a look at the 
prospects of obligating this money faster?
    And let me just tell you, as we watch the business process, 
we have often sent our teams out from the Armed Services 
Committee, particularly on up-arming the vehicles; and we say, 
how come we are not doing this faster in a particular case, and 
the answer is, we are only getting our steel so fast.
    We then sent a team to the steel company, and our 
professional staff members would say, how come you are not 
doing the steel faster? They say, because we didn't get a 
request to have more shifts, and we think that even if we did 
get a request, we might have a--we are going to have to work 
with the unions.
    And our professional staff members would say, let us talk 
to the unions; and we talk to them and they say, we have got 
kids over there, we will go with more shifts. And we would be 
able to actually move the production of up-armor to the left, 
that is, get it done sooner; not because we weren't working 
smoothly and not because funds weren't being obligated, but 
simply because we didn't ask the system, can you get it done 
faster.
    So my question to you is, can we get it done faster, this 
reset?
    General Schoomaker. Sir, I share your concerns about the 
typical management process of trying to be the most efficient, 
and, you know, managing through what I call each eye of the 
needle on the perfect slope, and--that has been a frustration 
of mine. And we have worked very hard, the leadership, and much 
of the leadership behind me has worked very hard to push that 
mentality to the side and to move.
    As you know, the $17.1 billion that was appropriated, that 
you authorized and was appropriated this year for us to reset, 
is broken down roughly into two roughly equal pieces. One piece 
of it is procurement which actually goes out and buys things, 
materials, and end items, out of industry. The other piece of 
it is for work. It is operation and maintenance money that pays 
for labor and for the actual work. We have obligated the first 
piece of that against the requirements, put that stuff onto 
contract.
    The thing that would regulate the expenditure of the rest 
of it is, we pay for work performed so that is going to be 
metered out at a different rate than what the other is. We have 
reset now, since the beginning of this war, over 20,000 pieces 
of equipment. And we have doubled the depot output. But as you 
know, in the depots, there are different lines, and some of 
those lines are constrained by long lead-term items that we are 
making investments in now that are going to affect us down the 
road, but because we didn't make the investment previously, are 
hampering the kind of effect that you are talking about.
    So my view is that we agree in principle on the necessity 
to be unconventional in the approach as we do it. The 
investment we are making today is going to pay off for us, but 
we are only four months into the deal. I believe that we have 
maximized our obligation of that money. I believe that it is 
going to pay off. But as you know, this continued pressure on 
deployment pressure and reset pressure is going to eat through 
that pretty quickly.
    Mr. Hunter. Thank you, sir.
    The Chairman. Thank the gentleman.
    Mr. Ortiz.
    Mr. Ortiz. General Schoomaker, General Conway, thank you so 
much for your dedication and your service to this country.
    I am concerned about the Government Accountability Office 
(GAO) report that recently reported that 40 percent of our 
armed forces equipment is currently in the Central Command 
(CENTCOM) theater or Iraq or Afghanistan. With the added 
deployment of five additional brigades, and then to have to 
reset and refit some of the equipment, and also trying to be 
sure that the prepositioning shifts that we have are stocked 
and that the National Guard and the reserves have their 
equipment not only to be ready when they are activated, but for 
them to train in case of a natural disaster, what is left here 
in the United States for them to train and to respond to a 
national disaster? Do we have enough equipment?
    I mean, we have got so much, you know, when we look at the 
depots and they have to refit the equipment, and then we look 
at the National Guard, they don't have equipment, and then 40 
percent in the Central Command. I mean, are you comfortable?
    General Conway. First--I will speak first and say that I am 
comfortable that the battalions, first of all, going in for the 
plus-up operation will have the equipment that they need. They 
are going to be taking their sets with them. It is going to 
require some time to get that to theater, but that is in work 
as we speak.
    There are 14 to 15, let us say, recent counterinsurgency 
related types of equipment that will have to be a spread-load 
to the Marines in the theater, based on these two additional 
battalions coming in. But the commander has looked at that, and 
they are comfortable that they will be able to execute their 
mission without significant risk to their force.
    The second part of your question about the prepositioned 
ships. I will tell you that sets one and three are back to full 
complement of equipment on board and are not in use. Set two, 
which has been used in the Central Command theater, is in the 
process of replenishment and will be back fully loaded by the 
end of calendar year 2008. So we are in good shape in that 
regard.
    The third part had to do with the equipment in the United 
States, and it is a continuing concern. We are not yet fully 
reset based upon production lines being such as they are. You 
have a lag between purchase and actual delivery of some of the 
equipment sets. So we are not yet fully at 100 percent or even 
Capability 1 (C1) with regard to our home base units, which 
gets back to the question that the chairman asked originally 
with regard to readiness.
    Mr. Ortiz. General Schoomaker.
    General Schoomaker. I think your general observation is 
correct. We disagree with the GAO report; we think they 
overstated. However, regardless of the exact number, there is a 
lot of equipment in the CENTCOM theater of operation.
    The units at home station do not have all of the equipment 
that we would like them to have to train; and as you know, the 
specific equipment, like the up-armored Humvee and the crew 
devices and the kinds of things that are used in Iraq and 
Afghanistan, are primarily there. We don't have much of that in 
the United States because we have loaded it forward where the 
people are in harm's way and need it. So that, too, is the 
case.
    This is an unclassified session, so I don't want to discuss 
our prepositioned equipment other than to say that we are not 
in as good shape as the Marine Corps is in terms of 
prepositioned equipment. We have had to use those pre/post ops 
in certain places to be able to meet the current demand as well 
as the surge. And the fact that we did rebuild those stocks is 
one of the reasons why we are capable of doing the surge that 
we are being asked to do.
    Mr. Ortiz. One of the things that concerns me is that we 
want to be sure that before they deploy, you know, that they 
become familiar with the equipment that they will be using, not 
to go to Kuwait and then train a couple of weeks and then they 
have to become familiar with the equipment that they are using. 
I just wanted to be sure that they have the equipment and that 
they train with the equipment before they get into harm's way.
    General Schoomaker. The majority of the equipment that is 
required by those units that are deploying, they are getting, 
but there is important equipment that is only available in 
Kuwait that they must train on before they cross the berm.
    The Chairman. Thank you.
    Mr. McHugh.
    Mr. McHugh. Thank you.
    Gentlemen, welcome. Thank you for your service.
    In response to the comments about the uniform, I hope they 
work out better for you than they did for Custer.
    General Schoomaker. I had the same feeling when he made 
that statement.
    Mr. McHugh. General Petraeus has commented in written 
documentation over the last several days to the Senate, talking 
about some of the criticisms he has--and I think all of them 
are wholly legitimate--about some of the lessons learned in the 
early days of Iraq. And one of the things he talked about was 
lack of contingency planning, failure to react quickly, et 
cetera.
    When I look at this surge, for lack of a different 
description, I get concerned when our contingency may or may 
not be as to the purpose of the hearing here today. When we 
engaged a former effort in a Baghdad operation, as I understand 
it, the Iraqis were charged with bringing six brigades to the 
fight; they brought two. I worry about what happens if, for 
whatever reason, the Iraqi part of this operation does not 
fully materialize. What do we then do as a contingency and how 
does that affect our force structure?
    We are planning that about 21,000 troops total could carry 
those into Baghdad. Do we have a contingency plan should either 
the Iraqi force not materialize or if the plan does not go 
according to script and we have to take another tack? And, if 
so, what does that do to the force?
    General Schoomaker. Well, first of all, let me say that 
neither the Commandant nor I have direct access on a daily 
basis to what is being planned in theater. So the question 
probably is better addressed to the commanders on the ground.
    Nor am I familiar with what General Petraeus has submitted 
to the Congress, although I have had many discussions with 
General Petraeus and largely share his assessments in our 
conversations. I have largely shared the--you know, the 
assessments that he has made.
    I was in--like the Commandant, I was in theater, you know, 
for my fourth Christmas since being in this job. I met with my 
counterpart over there, General Ali, who is a ground force 
commander for the Iraqi army, and had serious discussions about 
what his feelings were in terms of ability to deliver; and he 
was optimistic that they would deliver. And by the way, our 
conversations were right on the heel of turning over the 3d 
Division battle space that they have assumed, you know, in this 
plan. And he was optimistic.
    Yesterday, I met with the chairman's equivalent of the 
Iraqi army, General Bakhtiar. Met in my office with him and had 
a very similar conversation. And he, too, felt that this was a 
significantly different operation as has been laid out.
    Again, I don't have the specific details, but he was 
confident that they would deliver. And I would tell you, from 
our position, we will be watching as this thing unfolds; and 
there will be opportunities for us to assess whether or not the 
metrics are being met as we exercise this surge. And that is 
what I am sure the Secretary of Defense and the Chairman of the 
Joints Chief will be keeping their eye on as we do it.
    So I am not providing you all of the detail you would 
desire, mainly because I don't have all of the detail, but I 
can tell you from my observations and from the discussions I 
have had with the Iraqis, they appear optimistic that they will 
be able to deliver to expectation, and they think this is 
significantly different than what we have done heretofore
    General Conway. We need to get into the execution of what 
is planned at this point before we are able to identify what 
might be, then, some spiral opportunity off of that plan.
    Second, that we do have two new commanders coming into the 
theater, and I think we are going to have to give them the 
opportunity to assess and determine where we need to go next.
    Third, I have seen it characterized as the ``Hail Mary,'' 
that is, kind of the last play of the game; and I don't 
necessarily see it that way. I think it is the latest in a 
series of operations to attempt to stabilize Baghdad and the Al 
Anbar Province, and I am not sure it will be the last.
    Mr. McHugh. I appreciate that, gentlemen. I understand your 
lack of full information as to what may or may not happen.
    Look, we all want to be optimistic, but I am just saying it 
seems to me we ought to have some scenario, if not exactly what 
the action on the ground would be, but rather where the 
available troops, if any, might come from if they were needed. 
And that is my concern. As I think I have heard you both say 
here today, under a strained force, how much more strain can we 
place on them?
    Mr. Chairman, I see my time is almost up. With your 
permission, I would like to submit a question about troop needs 
in Afghanistan that I heard about on my recent trip and also 
what impact that might have on Iraq.
    The Chairman. Certainly. Without objection.
    Mr. Taylor.
    Mr. Taylor. Thank you, gentlemen, for being here.
    General Schoomaker, I feel our main concern that we are 
having a disproportionate, large number of deaths and injuries 
in Humvees. And I appreciate your need to reset the force and 
replace what you have already lost. The Marines have already 
outlined what I think is a very ambitious policy of replacing 
Humvees with something that is going to have a V-shaped bottom 
to deflect the blast from mines and improvised explosive 
devices (IEDs), something a little bit higher off the ground, 
hopefully, to buy them some space between that blast and the 
people riding in the vehicle.
    I was wondering what the Army is doing, because it was 
General Blum that actually explained to me the Humvee is 
actually worse than a flat bottom. It has got a concave bottom 
that actually channels the force of the blast into the cab, 
which explodes the gunners airborne 20, 30 yards from the 
vehicle once the mine goes underneath.
    Given what former Chairman Hunter said about the delays 
that all of us felt and the frustration all of us felt in up-
arming the Humvees, and the message not getting sent first to 
the industrial base and the people working in those factories 
and the people in the plastic plants, this is important. This 
isn't a job program; this is a mission to be accomplished by 
the private--American private sector.
    What is the Army doing so that we can replace these 
vehicles with a more capable vehicle in a timely manner, 
keeping in mind that this is where a very disproportionately 
high percentage of our deaths and injuries are coming from?
    General Schoomaker. I think that is an excellent question. 
The first thing I want to do is dispel the myth that the 
Marines have a different program than the Army. This is a joint 
program. Both of us are working on the Mine Resistant Ambush 
Protected (MRAP) vehicles together.
    Mr. Taylor. The 4,000 vehicles that the Marines said they 
wanted to have in inventory by next January still leaves us far 
short from the, approximately off the top of my head, 20,000 
vehicles in theater. So what is the plan?
    General Schoomaker. Therein lies the dilemma. First of all, 
the MRAP is the one we are talking about, is the mine resistant 
ambush protection vehicle that is an interim solution to a 
better vehicle, a joint vehicle, that will--that clearly needs 
to be designed, you know, for the future.
    The Marines' requirements are only a fraction of what the 
Army's requirements are in Iraq. It is a much smaller subset of 
the whole; and the Marines, like the Army, we want to 
accelerate the interim solution. This MRAP, which is the 
lightest of the three versions, you know, the next is the 
Cougar and then the Buffalo level 2 and 3, which we are doing. 
And it is the light version that is the issue; that is the 
Humvee version.
    So we support what the Marine Corps wants to do because we 
want to do the same thing. We want to accelerate the fielding 
of these, but our requirements are much larger.
    Mr. Taylor. To the point--I was really impressed with the 
Marine Corps general in charge of this program that not only 
gave us a target figure and target date for delivery--what is 
your target figure and what is your number of vehicles and what 
is your target date of delivery so that, hopefully, Congress 
can work with you to make this happen?
    General Schoomaker. Well, the target figure, the initial 
target figure, is 2,500. But as I told you, we want to make 
sure that we are ramping toward a better solution, which is the 
joint one that is designed, you know, with the latest 
technologies to be able to resist the deal. And I will have to 
give you what our target date for that is.
    We are moving forward to a Joint Light Tactical Vehicle 
(JLTV) from one which is customarily inadequate, trying to make 
the MRAP the armed solution.
    What I am describing here, what the Marines are talking 
about, is an interim solution. 2012 is the point at which some 
people think they can bring it, and of course we want to bring 
it to the left.
    Mr. Taylor. If I can give you one last thought, one of my 
frustrations--I think also of many members of this committee--
is a continual game with words that says we have ``met 
requirement,'' and requirement wasn't 100 percent of what 
needed to be done, whether it is body armor, whether it is up-
arming. I would hope ``requirement'' is every vehicle in Iraq 
and Afghanistan.
    Thank you, Mr. Chairman.
    The Chairman. Thank you so much.
    Mr. Bartlett, please.
    Mr. Bartlett. Thank you, Mr. Chairman. I note Mr. Conaway's 
very faithful attendance at these hearings and consistent with 
my policy of usually relinquishing my time to a junior member, 
I am very pleased to yield my time to Mr. Conaway.
    Mr. Conaway. I thank my good friend from Maryland for the 
opportunity.
    Generals, thank you both for being here. I appreciate your 
service to our country.
    General Schoomaker, I mentioned some measure of concern on 
the readiness for the troops in country here, yet to be 
deployed. Without violating security issues, can you talk with 
to us briefly about, is it people, is it equipment, is it 
training; what is it that does concern you?
    And then to finish off with, you mention the military 
construction (MILCON) problems you are having. The ranking 
member talked to us about the ability to spend $70 dollars on a 
dime. The problems that you are having with the MILCON delays 
as a result of Congress is what both Republicans and now the 
Democrats are not doing. I look at a list that was provided by 
you: replace family housing, maintenance, infantry squad, 
battle courses, a wide variety of military construction that I 
suspect reaches all across the readiness issues and everything 
that we are doing with the quality of life. I have got barracks 
complexes; I have got replacement of family houses; urban 
assault courses. Those are the Army's problems.
    And General Conway, if you could talk to us about the 
Marines' problems with MILCON being delayed; and General 
Schoomaker, if you could mention what Speaker Pelosi's response 
to you was.
    General Schoomaker. I have not met with----
    Mr. Conaway. You requested it?
    General Schoomaker. I understand that I will have the 
meeting, and I will lay out some of what I say here.
    First of all, to your first question, I testified in June 
that I had concerns with the strategic disposition of the Army. 
That was about seven months ago. Since that time, we have got 
increased stress on the Army. We are using the supplemental 
funding to reset the Army as fast as we can, but as you know, 
there is leniency in delivery. You know, we have got it moving 
very quickly, but the delivery has yet to be taken.
    So my concerns are increased over what they were in June in 
terms of what the pressure is on our force, both in terms of 
low time, in terms of equipment, in terms of time available to 
train, and all of the rest of it. So we have a slightly 
different problem. Our primary in the active force is equipment 
on hand and the time to train properly and fully. On the 
reserve side, we have personnel issues and equipment issues as 
we reset the reserve components. That is primarily what it was.
    The second question had to do with the MILCON. I will give 
you an example. Not getting this MILCON budget is going to 
affect the stationing and conversion of three brigades at Fort 
Bliss, Texas. I was out there looking at it and the ground has 
all been pushed around, the foundation is starting to go in. 
But it is going to stop because we don't have the money. It is 
going to prohibit us from consolidating the 173rd Airborne 
Brigade that is now split between Germany and Italy. It is 
going to prohibit both the growth and the stationing of the 7th 
Special Forces group. We are supposed to grow an additional 
battalion in the 7th Special Forces group. Nor will we be able 
to station the 7th Special Forces group in Eglin Air Force 
Base, which we have planned.
    Additionally, it will impact two barracks complexes. In 
other words, we will not have barracks in which to put the 
forces we are growing.
    It will affect 30 training and training support facilities. 
It will affect 46 operation and maintenance facilities. It will 
affect approximately 90 reserve component facilities in 45 
states. It will affect over 5,000 homes in the family housing 
and 16 child development youth centers, affecting approximately 
4,000 children.
    Mr. Conaway. Can we let the Marines weigh in?
    General Conway. Let me talk to the readiness in the United 
States issue, as well, because General Schoomaker referenced 
this training as large. What we are developing right now is the 
best counterinsurgency force in the world, both Army and 
Marine, but that is essentially what they are focused on 
because of the limited dwell time stateside and the turnaround. 
So we need to be able to train toward other major contingency 
types of operations, and we are not doing it.
    On MILCON, my service is up against the wall. We have 
needed new barracks for 20 or 25 years, but every year when we 
have had to prioritize what else was out there that we had to 
have, barracks went to the bottom of the list. We have taken 
that as far as we possibly can. We are scheduled to have 105 
new barracks built between now and 2012. They are going to be 
replacing Korean War era barracks, open squad bays, in some 
cases, and that is just unsatisfactory. My predecessor 
initiated this program last year, and it is critically 
important to us because we just pushed it off as long as we 
possibly could.
    The Chairman. Mr. Reyes. Mr. Reyes is next on the list.
    Mr. Reyes. Generals, thank you for being here and thank you 
for your service. I agree with you on the issue of the MILCON 
funding; in fact, we tried very hard to get it passed before 
the end of the last session and we will continue to work on 
that with you.
    Before I ask you a couple of questions, I think it is 
important to articulate that while the President's strategy 
calls for 21,000 additional troops, I don't support that and I 
will tell you why. I feel strongly, like you and others, that 
the greatest threat in Iraq is security. And this very 
dangerous environment is fed by the militias. Last summer and 
early fall I listened to military leaders who were of the 
opinion that, if given the mission to neutralize these 
militias, our military could do so with a temporary increase of 
between 20,000 and 30,000 troops. So I felt that was reasonable 
and a worthwhile investment that would result in a more secure 
environment for both our troops and to give the Iraqi 
Government an opportunity to establish itself.
    However, since that time, the security situation has badly 
deteriorated, and when the President made his announcements and 
gave us--individual groups of Members of Congress--briefings at 
the White House about his plan, he told us that that was 
essentially--he attributed it to Prime Minister Maliki, which 
concerned me because of his spotty track record in the past. At 
one of those meetings with the President, I directly asked him 
if, in fact, his plan, would be to neutralize these militias 
which--he said it was not intended to do that.
    I think it is important because I believe the solution is 
to make the Iraqi Government accountable for both their own 
security and also, with our support, to find a political 
solution to the sectarian differences and violence that are 
creating the environment in Iraq.
    I don't know if either of you wants to comment on that, but 
the question that I would want you to comment on is the fact 
that over the weekend there was a report that we might be 
asking or we might be moving troops from Afghanistan into Iraq. 
So can both of you assure this committee that no troops will be 
pulled from their mission in Afghanistan to fulfill this 21,000 
plus-up in Iraq?
    And then the other question, General Schoomaker, is in the 
doctrine of training to fight with the shortages in equipment 
and the challenges that you have articulated here this morning. 
What does that do to that doctrine when you have to--you have 
to cross that threshold?
    General Schoomaker. Well, to answer your last question 
first, what we are doing is rapidly cross leveling equipment 
within the United States, so that the people that are deploying 
have equipment to train on, to go. So what that does then is 
you get the second order of effect, third order effect of the 
units the equipment come from, not being able to do the things 
they need to do, so that when they are in line, we have to move 
the equipment back to do that. We are basically sharing 
equipment.
    Now, one of the initiatives, you know, the modular force, 
where we are standardizing the force, one of the things we were 
able to do when we swapped out the 1st Cavalry and the 4th 
Infantry Division (ID), was because both of them were modular, 
we were able to move the people of the 1st Cavalry Division 
into Iraq on the equipment that the 4th Infantry Division had 
there and leave the equipment at Fort Hood, so when the 4th ID, 
came back they fell into the equipment that was there that had 
been fixed.
    This saved us almost one billion dollars in transportation 
costs on this last swap out and picked up seven months in terms 
of equipment availability so that we are able to train those 
units. We are doing all kinds of things, you know, to get 
around it. But the fundamental thing is, we are sharing 
equipment, is pushing it around.
    But I can promise you that we are putting the best-trained 
people we can across the berm. But the more short time this 
dwell time is, the more difficult that is to do.
    You had a question up front on moving troops from 
Afghanistan to Iraq. I know of no effort to do that. I have 
heard nothing like that. We certainly have not sourced this 
plus-up in Iraq with any forces out of Afghanistan.
    Mr. Reyes. Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Reyes.
    The gentleman from Virginia, Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Gentlemen, thank you both for the great job that you do and 
for all that your men and women do.
    One of the major things that you mentioned, General 
Schoomaker, when you began your testimony, was the balance that 
has to be struck so many times between the issues. One of the 
big things our forces have been able to do is create a 
deterrence from other nations doing things that perhaps we 
would not want them to do.
    One of the things that I would ask both of you to comment 
on, is, based on where we are now, relative to where we are, 
let us say, in 2002. If you had to rate it on a one-to-ten 
scale, is our deterrent effect overall for our forces worse 
now, better now, than it was in 2002?
    General Schoomaker. I would, first of all, I think that 
getting into this in too much detail is not appropriate for 
this session. I recommend that you take a look at the 
classified data that we provide the Congress that shows our 
readiness and take a look at the chairman's risk assessment, 
which we all contribute to and that he submits. I think that 
will answer you in more detail.
    I can assure you the United States of America has got 
considerable deterrent capability. Our concern is, when you 
take a look at some of the plans, because of the strategic 
depth problem that we have, it will be slower to execute some 
of those plans in terms of the timelines that are expected, and 
that, you know, there will be a greater crunch in that respect. 
In many cases, we would have to use joint capabilities to 
offset some capabilities, perhaps we don't have the depth we 
need. I think I will leave it at about that level.
    General Conway. Sir, to answer it this way, if you would 
just take a look at the numbers, the percentage comparison 
between then and now, you might not be pleased with what you 
see. However, I would say it is a much more capable force in 
terms of the combat experience, in terms of the additional 
equipment sets that we now have, those manner of things, which 
allow us then to, if called, to go somewhere and be able to 
respond.
    Mr. Forbes. Thank you, Mr. Chairman.
    The Chairman. Thank you so much.
    Dr. Snyder.
    Dr. Snyder. Thank you very much, Mr. Chairman.
    Gentleman, thank you for being here. General Schoomaker, we 
appreciate your service here. You were drawn out of retirement 
at a very difficult time in our Nation's history. We appreciate 
you.
    General Conway, you are the new man on the block, born in 
Arkansas, I might add.
    I wanted to address some of my questions to you, because 
you referred to the trip that you made with your Marines in 
Iraq over the Christmastime. You actually, in your statement, 
you use the term ``surge,'' and words are, and have all kinds 
of means and uses and we have all kinds of political dynamics 
to them, so we are hearing the word ``surge,'' we are hearing 
the words ``escalation,'' ``fluctuations.'' What do you think 
the appropriate term of art is for an increase of 21,000 
proposed over a force of 140,000?
    General Conway. Sir, that is a tough question to answer, 
because we don't know what the end state is going to be or 
potentially when those troops will come out. But by a strict 
military definition of ``surge,'' a commander makes a conscious 
effort to mass his troops at a specific point and place in time 
in order to achieve a desired result.
    But on the backside of that effort of a surge, there must 
be what we call a ``payback,'' and that is that you will have 
forces to employ at a later period of time because you have 
used them in some form or fashion. What I think I would term 
what we see happening now is more a plus-up of forces in Iraq 
and Afghanistan, not a surge.
    Dr. Snyder. One of the things you said in response to a 
question, I think in response to Mr. McHugh, that this may not 
be the last effort or new effort, or trying to think of a 
response as a Hail Mary, which I think is a very candid thing 
to say.
    As these discussions are going on around the country, I 
think there is a lot of Americans that think this is more of 
the Hail Mary, that this is our one last chance to get it 
right.
    In fact, Secretary Gates, in his statement, both oral and 
written, said if this isn't going well, we may stop it before 
we get to the 21,500. But your testimony is here today, if this 
doesn't work, we may well try some other things, is that a fair 
statement?
    General Conway. Sir, it is my personal conviction that we 
have to be successful in Iraq. I have a concern that we are on 
a certain timeline to accomplish success. Marines and soldiers 
are seeing incremental success, I think, on a daily basis in 
the country.
    But my concern is that that timeline that we see needed is 
not the same time line that the country is prepared to provide 
us. I just have dire concerns that if we leave before the job 
is done, conditions in the Middle East, the enemy statements in 
terms of his strategy, his grand strategy, are such that we 
could be going back in there some day in order to assure 
national vital interests are maintained.
    Dr. Snyder. General Conway, you referred that there are 
several different plans and that your troops on the ground in 
Anbar, I think were your words, could use a couple of 
battalions. As these different plans were being discussed, is 
it fair to say that the military leadership was coming down on 
the side of lesser numbers than the civilian leadership? Is 
that a fair statement?
    General Conway. Sir, you are right. There were a number of 
plans out there. One of them that I saw called for as many as 
four regiments in the Al Anbar province at any one time. That 
is not consonant with what the commander of Marine forces in 
Iraq said he thought he needed or could use, again, against an 
achievable military objective.
    Dr. Snyder. The Marine Corps through our history has always 
had the reputation of being able to work in counterinsurgency 
operations. What is your assessment, given that you have only 
been on this particular task now since November, where we are 
at with regard to the political and economic, the nonmilitary 
side of what is going on in Iraq?
    That is, for a lot of us, that is the issue. I mean, I 
continue to be disappointed how quickly the President dismissed 
the Iraq Study Group's recommendations. What are your 
perspectives of that?
    General Conway. Sir, I think those that you mention, 
political and economic are absolutely essential to success over 
time. I think our chairman of the joint chiefs of staff, 
General Pace, has said publicly that it is a three-legged 
stool. Security is one aspect of it, but the political and 
economic are the others that will prop that stool. They have to 
be in place for this plan, and I think for our success in Iraq 
to find a satisfactory end state.
    Dr. Snyder. Final question, do we need additional troops in 
Afghanistan?
    General Conway. When I spoke to the commanders in 
Afghanistan, they were concerned that there is a spring 
offensive coming, and it is their belief that they could use 
some additional troops in Afghanistan.
    Dr. Snyder. Is this going to interfere with our ability to 
give them the troops that they are requesting, the Iraq surge?
    General Conway. Would you repeat that question, please.
    Dr. Snyder. Is the Iraq surge proposal going to interfere 
with the ability of us to meet the demands and requests of the 
commanders on the ground in Afghanistan?
    General Conway. I would say it will impact it. It will not 
interfere with it to the extent that it will preclude it.
    Dr. Snyder. Thank you.
    The Chairman. The gentleman from South Carolina, Mr. 
Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    Thank you, Generals, for being here. I am very grateful. 
The district I represent includes Ft. Jackson, such an 
extraordinary training facility, Parris Island, training for 
the Marines east of the Mississippi, the Beaufort Marine Air 
Station, and I am just really grateful for those installations 
and the dedication of the persons who serve there and the young 
people serving in the military.
    Additionally, I am grateful that this month, the 218th 
Mechanized Infantry Brigade, General Schoomaker, of the South 
Carolina Air National Guard, I served in it for 25 years, has 
been mobilized. It is the largest mobilization of the National 
Guard in South Carolina since World War II; and the members of 
that brigade are so proud to serve.
    I had some come visit me yesterday before they actually 
leave the country. They brought their family by to visit and 
tour the Capitol.
    But I am, indeed, concerned for guard and reserve members 
as there is greater mobilization. Could both of you, 
particularly General Schoomaker, indicate are there any 
programs, are there any legislative initiatives being proposed 
to assist guard and reserve members?
    General Schoomaker. To assist guard and reserve members in 
what regard?
    Mr. Wilson. Their families, in terms of any benefits that 
are being proposed, or greater consideration for disruption of 
their employment? Obviously, an issue that always is near and 
dear to me and others is to provide for the retirement age to 
be reduced, not to apply to me, from 60 to 55. Are any of these 
going to be potentially enhanced this year?
    General Schoomaker. Sir, I would have to take part of that 
for the record and provide that to you.
    But I can tell you in a broader sense, we are making an 
extraordinary commitment in the budget, in the program, to 
recapitalize the guard and reserve. Right now, it is some $23 
billion across the program and equipment.
    I know, and I have got Lieutenant General Clyde Vaughan 
with me here, who is the director of the Army National Guard. 
He has got some extraordinary programs going that are working 
with the states on family support programs, the networks to 
support people.
    I know across the force, we have worked with the Department 
of Defense for certain compensations and incentives for these 
deployments. For instance, those soldiers who are extended in 
theater will see an additional $1,000 a month, about $200 a 
month, in hardship duty pay, and about $800 in assignment and 
incentive pay, I believe, that is involved in that, these kinds 
of programs.
    On the backside where the families are back, obviously, in 
the guard and reserves, now that we have a coherent policy of 
mobilizing units rather than doing this tremendous cross 
leveling where it takes 20 or 30 states of individuals to put 
together a unit, we now have a better ability to deal through a 
coherent command structure so that we can support the families 
at home, and so that we can give predictability to the guard 
members.
    Now that we have a policy that says our mobilizations will 
be a year, you know, and that we are going to frontload prior 
to that year, give an early alert to a guard unit so that they 
will have a year to prepare, will reduce the post-mobilization 
training that is required so we will have a year to mobilize. 
Of course, this will reduce the year's number of months boots 
on the ground, probably, somewhere, eliminating it to nine or 
ten months boots on the ground, but it is a better policy. It 
is one, I think, that will pay back.
    Mr. Wilson. General, I really appreciate you and all the 
Generals being soldier-concerned and family-concerned.
    Another issue that I work with and am very proud that the 
recruiting school is located at Ft. Jackson and really for both 
of you, and I know it needs to be brief, but are there new 
tools that are going to be made, again, programs, and let us 
say initiatives, that could help in regard to recruiting and 
retention?
    General Schoomaker. We have, well, I speak for the Army. We 
had our most successful year in the active last year, most 
successful in the National Guard in 13 years, last year. We 
recruited over 175,000 soldiers last year, in 2006, a very 
successful year.
    Of course, it had to do with the tremendous amount of 
incentives, it had to do with the amount of recruiters, the way 
we train recruiters, our approach, advertising, you know, very 
comprehensive plan on how we did that.
    This is going to continue to be a competitive market. We 
are competing for the very best in America. You know, 100 
percent of the soldiers that come into the United States Army 
have a high school degree or the equivalent of a high school 
degree.
    The Chairman. The gentleman from Washington, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman, and thank you, 
gentlemen, for being here.
    I have a couple of questions on the readiness of our 
troops. How is the training in counterinsurgency going in terms 
of the troops when they are back here and ready to go into the 
field, because we have had some extraordinary successes in 
Iraq? You mentioned al Qaim and a couple of other places, but 
the impression I have gotten from talking to other people is 
sort of hit or miss.
    There are some troops, some units, like General Petraeus 
when he first showed up there, that are ready to go on 
counterinsurgency, focused, trained, and their commanders and 
their leaders in their field moved them there. Others, it is 
not really a priority. How comprehensive is the 
counterinsurgency training for readiness when our troops go 
over there?
    General Conway. Sir, I will speak first and will say that 
it is extensive and comprehensive. We have what we call a five-
block training program that takes about five months of seven 
months that a unit is home, on average. The last block, and 
most sophisticated aspect of it is conducted at what we call 
the Mojave Viper training exercise, conducted at Twenty Nine 
Palms, California.
    There we have about 250 Iraqi-Americans who live in a 
village who create with great frequency and a level of angst 
issues and problems, and those situations that our commanders 
and our troops are going to face in Iraq.
    Mr. Smith. You are confident, at this point anyway, that 
troops in Iraq, troops going over there are trained and ready 
to go in counterinsurgency?
    General Conway. We don't send a unit to Iraq unless they 
have completed all five blocks of that training.
    Mr. Smith. Thank you.
    General Schoomaker. Sir, I would agree with that, but I 
would remind you we cover an extraordinary large number of 
missions. For instance, we have people running convoys; they 
train to run convoys. We have people that are security force 
companies that are either guarding facilities, protecting 
convoys, doing things in the security role; they train for that 
function.
    We have people that are going to be operating in urban 
environments. They train for that. We have some that are 
operating on nonurban environments. We have a wide variety of 
functions, so we tailor to task and we train. Now, every 
soldier is trained to a certain level.
    I can tell you that we have made huge improvements, not 
only in our doctrine, but in the way that we are applying that 
doctrine as we learn this. Then I will remind you that 
counterinsurgency isn't just a military function. As has been 
pointed out, there are a lot of other nonmilitary components to 
it, and we attempt to train in that environment as best we can, 
you know, to prepare people for that.
    Mr. Smith. Thank you. I wanted to follow up also on a 
comment you made about we have to succeed in Iraq. We hear that 
a lot. I understand that. I want to tie that a little bit into 
Afghanistan, because what really concerns me is in Afghanistan, 
al Qaeda is still there. Bin Laden, Zawahiri, they are not 
gone. While there has been some speculation that their 
occupational capacity has been destroyed, there is still a lot 
of evidence there is still training going on up there, that is 
sort of the central point for al Qaeda. We know, without any 
doubt, that they will threaten us. They have done it before; 
they will do it again.
    In Iraq, it is a much more complicated picture; it is 
absolutely a threat. I am not--don't interpret me as minimizing 
that whatsoever, but whereas in Iraq it is a threat, what will 
happen if Iran gains undue influence? What direction will the 
Shi'a go? How much influence will al Qaeda have?
    In Afghanistan, it is more of a guarantee. I just worry 
that we are not placing enough emphasis on what's going on over 
there. I just sort of want to make that plea. I am interested 
in your comments, of course. As far as succeeding in Iraq, I 
have heard this, ``Gosh, if we don't succeed, we will have to 
come back.''
    I am curious, it is hard for me to picture at this point, 
success reaching that level where in some reasonable timeframe, 
let us say 5 years, we can walk out of there and go ``Don't 
have to worry about that for 20 years.'' It seems to me we have 
reached a point in Iraq where our ideal outcome when we went in 
isn't happening.
    So I am worried that we haven't sort of shifted the mission 
to say ``Okay, what does success look like?'' Instead of just 
saying, we have to win, what does it mean, because we are not 
getting what we wanted. How can we get it to a reasonably 
stable point?
    I am curious, have we evolved in our thinking on that in 
terms of what success would look like in Iraq? Also what will 
we do to make sure that Afghanistan gets the attention that it 
deserves?
    General Conway. Sir, I think we have evolved to a degree in 
terms of what the commanders would now term end state in Iraq, 
and without quoting their specific mission statement, it 
entails a country that is successfully stabilized, is self-
governing, that is not an ungoverned space and an area where 
terrorists can operate freely as a base of operations. We think 
that we can achieve those things that, in state, will be 
considered positive.
    I think that there is a long-range concern for the security 
of Iraq as a region. Iraq is potentially a very rich country. 
There is a concern for its long-term security, and that must 
have proper consideration, but we are talking about large 
investments of troops in order to be able to do that.
    Mr. Smith. Absolutely.
    The Chairman. Thank you. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here. I notice the entire panel today was my 
classmate at one time or another, probably explains a lot about 
something, I am just not sure which.
    General Conway. Means you are pretty old, sir.
    Mr. Kline. It does. Thank you for pointing that out, 
General.
    But I want to reflect back to a couple of things. I want to 
follow up about what Mr. Wilson said about the National Guard 
and put my plea in, because you have the director of the Army 
Guard behind you to follow up what we are doing in the 
Minnesota Guard with the reintegration program, what we are 
doing with the troops when they come back, particularly 
important now that the Minnesota Guard, 2,600 soldiers, are 
being extended for this surge.
    That is my plug, and you won't hear the end of it. We 
really need to do that, and I hope that you will be able to 
spread that guard-wide.
    Then, thanks also to everybody involved, you, all of you 
here and to the Secretary for the additional $1,000 a month, 
very important for those soldiers and Marines who are being 
extended.
    Now, to get back to the old days, we are here to talk about 
the impact of the increased number of troops in Iraq on our 
readiness, and we have heard testimony from both of you about 
spreading and leveling of equipment. I have confidence, and I 
think you do. If you don't, I hope you will say something now 
about the state of training and equipment for those troops that 
are deployed everywhere in CENTCOM, certainly in Iraq.
    But I remember in those bad old days, gentlemen, you and I 
were classmates in the mid-1970's and getting a little bit 
better, General Conway, when you and I were classmates in 1982. 
But in the 1970's, there were literally days when we had to 
park the planes and park the Jeeps. We could not train at all.
    The famous example is when we asked the married Marines to 
bring their toilet paper in so the Marines in the barracks 
would have some. We were not anywhere near that.
    Can you just sort of, in comparison, tell us what the state 
of our armed forces were in the 1970's and what the state of 
our forces now is in terms of training, equipment and morale, 
those that are back in the states; just a quick comment from 
each of you, please.
    General Schoomaker. When you and I were classmates together 
at Quantico, in the Marine Amphibious Warfare School, I had 
just come from Korea, where I was a battalion S-3 in a tank 
battalion on the demilitarized zone (DMZ). We had no heaters on 
our tanks, no canvas on our vehicles. We had so little fuel 
that we had to make a decision.
    We only had 50 miles a month in fuel. We had to make a 
decision whether to heat our barracks or to run our tanks. We 
would run an entire tank gunnery on five tanks for a battalion 
because we didn't have the track, the road wheel, the sprockets 
and the gun tubes and ammunition to do that.
    There is no comparison between this Army and the Army we 
had in the 1970's. It was in total disarray. This is nowhere 
near that kind of a situation.
    However, the strategic demand on this force is higher than 
it has ever been in our history. It is so much higher than it 
was in the Cold War, and we cannot fail to invest, to stay 
ahead of this, for the good of the Nation, for the good of the 
soldiers, the Marines that are in the force, and for the good 
of the family members that support them.
    General Conway. I can add a number of examples to emphasize 
the same point, but it would all wind up in the same place. I 
think General Schoomaker is exactly right. These plus-ups of 
our service that are being considered are absolutely essential 
with regard to the strategic appetite and the importance of 
taking the stress off the individuals that are seeing these 
repetitive deployments.
    We have got the potential to have a great Marine Corps ten 
years from now with all the combat experience and the things 
that are now developing. My concern is if we lose large numbers 
of our mid-level leadership, both in the enlisted and the 
officer ranks, we are going to suffer then as a result.
    Mr. Kline. I thank both of you for your comments. I just 
shudder to think we could ever move even one step in that 
direction. I hope you will both be here pounding the table if 
you ever feel we are moving in that direction. That is just 
absolutely unacceptable.
    Final comment, I am delighted that we are increasing the 
end strength. I felt like, as a number of members of this 
committee, we were shouting at the wall for some time. We want 
to make sure when we do that they are adequately equipped. I 
thank you so much for your service.
    Mr. Chairman. I yield back.
    The Chairman. I thank the gentleman.
    The gentlelady from California, Mrs. Tauscher.
    Ms. Tauscher. Thank you, Mr. Chairman.
    As one of those who shouted at the wall for quite a while 
and couldn't get Secretary Rumsfeld to agree that we needed to 
increase the size of our active duty forces, I am glad we now 
all agree.
    Unfortunately, I think it is three years later than any of 
us really believed was necessary or important to do, but I 
actually have something in my office happening that I have to 
deal with, so I am going to yield my time to Mrs. Boyda of 
Kansas.
    Mrs. Boyda. Thank you so much. I am Nancy Boyda from 
Kansas. I bring you a message from my husband, Steve, who was a 
Marine during the Vietnam period. He just says he is very, very 
happy to see the Army and the Marines working together so well 
these days. Thank you for that and thank you for your service.
    I would like to follow up on my colleague's question, Mr. 
Snyder, from Arkansas. You were saying that you don't think 
that if we needed more troops in Afghanistan, that this troop 
surge in Iraq will have an impact. I would like to get some 
clarification on that.
    You are saying if we need troops this spring in Afghanistan 
for any kind of a conflict increase there this spring, are 
those troops going to be available and where would they come 
from?
    General Conway. Ma'am, let me answer your question quickly 
and then turn to General Schoomaker, because I anticipate at 
this point that they will be soldiers, not Marines, so I think 
this is for the second half of your question.
    I will simply clarify. There is impact any time we send in 
more troops than we are sending in right now. It impacts this 
dwell ratio that we spoke of. It makes it more difficult in 
equipment sense and getting them in the theater and those 
manner of things. So I would emphasize there is impact, but 
interfering to the degree we would not or could not provide 
those additional troops is where we draw the line. We can do 
those things. It is just that there is impact.
    General Schoomaker. I agree totally with that. We may very 
well have to do that. We will be able to do it. The impact is 
such things as extension, such things as reduction of the dwell 
time, additional movement of equipment, compressed training 
time and all the rest of it, so there is an impact. We will be 
able to do it.
    The question is, again, just like what the commandant said, 
on the backside of these kinds of actions, you pay a price. You 
pay a price on the backside.
    Mrs. Boyda. My additional question has to do with the same 
area. The surge plan does call for five combat brigades to be 
sent to Iraq, but we haven't been told what additional combat 
support units will be needed to support these units. Combat 
units, of course, required a tremendous amount of support to 
remain operationally effective.
    Someone has to maintain the additional equipment, provide 
medical support and other logistical needs. How does the 
Department plan to provide additional support for these 
additional combat brigades? Will they be supported by 
additional military units or by an increased use of Army 
contractors? If the support is from the military, where will 
these units come from?
    General Schoomaker. Well, the five-brigade surge is Army, 
and the--right now, we do not anticipate there will be 
increased combat service support requirements over what is now 
embedded inside of the brigade combat team that we have. As you 
know, with the modular brigade now, we now have force--full 
battalions inside of the brigade itself. We now have engineers, 
et cetera.
    It appears right now in our planning that the combat 
support, combat service support base that we have got set in 
Iraq is sufficient to support the five additional brigades that 
are coming with the embedded combat support, combat service 
support capabilities that those brigades now have.
    Mrs. Boyda. Thank you. I yield my time.
    The Chairman. Let me ask an interim question, here, the 
gentleman from California, Mr. Hunter, just reminded me how he 
and this committee urged the speeding up of production of 
Humvees. I will ask each of you, and each of you have depots, 
depots, as we call them back in Missouri, where you are 
reequipping the force. Are all of your depots working at full 
capacity, in other words, three full shifts? General 
Schoomaker.
    General Schoomaker. Our depots are not working at three 
full shifts. We have gone from, I believe, six-day, eight-hour 
days, six-days-a-week shifts. We have gone to six-day, ten-hour 
shifts in the depots. Again, that is an average. It has a lot 
to do with certain lines are running three shifts, seven days a 
week, because they have the equipment to do it. Others are 
limited by long-term lead items. It is complex. I would be glad 
to provide detailed briefings.
    The Chairman. There is some unfixed equipment, am I 
correct?
    General Schoomaker. Certainly, certainly.
    The Chairman. General Conway.
    General Conway. Sir, let me preface by saying we are not 
nearly as equipment intense as the Army. We have one functional 
depot that is providing the capacity that you speak of. That is 
at Albany. It is operating at about 70 percent, and it is 
keeping apace of our needs. In fact, we are conversing with the 
Army now as to some possibility of getting some of their work 
sent down to Albany.
    The Chairman. For the record, would each of you respond in 
detail regarding speeding up the equipment at the depots? We 
would certainly appreciate that.
    Another reminder, a few moments ago, a request was made for 
the record. Could you make sure that your record is complete 
within just a few days so that we don't have to embarrass all 
of us and pick up the phone and remind you that an answer has 
not come by.
    Dr. Gingrey.
    Dr. Gingrey. Thank you, Mr. Chairman.
    General Schoomaker, General Conway, thank you so much for 
your service and for being here with us today. I think I heard, 
in both of your testimonies, that you were concerned about the 
ability of us to react to other contingencies, I think you put 
it, General Conway, in light of the situation, in light of the 
presence, new plan forward in Iraq, and the 21,000 additional 
troops, Army and Marine.
    I guess really cutting right to the chase, my first 
question would be, is it worth the risk? You have acknowledged, 
I think, in your testimony, that there is some risk in regard 
to the total force situation and what is going on in the Middle 
East, and the need to plus that up.
    Then I will ask you, too, as you respond to that question, 
my second one, if we had followed the advice of one of your 
predecessors, General Schoomaker, in regard to the total force 
needed to be successful, in operation, operation Iraqi Freedom 
in particular, and I think that was a call for something like 
250,000 troops, I think the most we had in theater has 
approached 160,000.
    If we had followed that advice, possibly, that was the 
correct advice. I don't know, a lot of Monday morning 
quarterbacks now trying to make that decision, that call. But 
if we had followed that advice, what would that, indeed, have 
done to our capability of responding to other contingencies 
regarding what our total force structure was?
    General Schoomaker. Well, sir, first of all, I think you 
are referring to General Shinseki. He made a statement, I think 
it was before this committee, that it would take several 
hundred thousand or a few hundred thousand, some words more. I 
don't know if he put 250,000 on it, but clearly the inference 
was it was more than 200,000.
    The first part of my answer would be, we had sufficient 
forces to do the first phase of this operation, which was to 
defeat the Iraqi forces, the conventional forces, the Iraqi 
Army and seize Baghdad. We did that very successfully with the 
force that was committed.
    My military judgment, in hindsight, it is clear that 
several hundred thousand forces following that would have made 
a difference, it would have made a difference.
    But, you know, this is four years later. We are looking 
back on it, and so I don't think there is any question. History 
has demonstrated General Shinseki was correct, that following, 
the follow-on phases of it, those additional forces would have 
been necessary, in my opinion, my military judgment.
    I would tell you that at that time--we have made such 
significant strides improving the Army since that time, that my 
view is the risk would have been even greater in terms of the 
strategic risks we would have been taking in terms of the depth 
of members. Remember, the first appearance I made before this 
committee, I said that I requested from the President 
permission to grow an additional 30,000 soldiers in the Army, 
because at that time we were down to 482.
    So, in fact, that investment we made temporarily is 
actually the great big down payment on this growth that we are 
trying to do. We did not waste the three, three and a half 
years that it was in there. But we didn't have those forces 
then, nor did we have the number of Humvees that we have got 
today, nor did we have the body armor, nor did we have the 
weapons, nor did we have the radios.
    We were 100,000 radios short in the Army at that time. That 
was an A-load Army. That was an Army that was reporting not 
against what was required fully in force, but what was 
authorized based upon the shortage.
    The biggest problem we had was in the combat service, 
combat service support of our Army, and in the National Guard 
and reserves, which were clearly underequipped, undertrained 
and ready, in my view, compared to today.
    So the answer is, I think in my judgment, I agree with 
General Shinseki, it would have been useful to have more forces 
following the success that we had, the initial phase of the 
operation. Second, had we committed that amount of the Army to 
endeavor, the strategic risk would have been greater than where 
we sit today.
    General Conway. Sir, I have a different perspective on that 
that I will offer you.
    General Schoomaker is exactly right. We had sufficient 
force to achieve the objectives, to take down the Iraqi Army 
and to secure Baghdad. But my belief is that as soon as 
possible thereafter, we had to get the most respected 
institution in Iraq back in place and functional, and that was 
the Iraqi Army.
    For a combination of reasons, that didn't happen. We 
thought there were going to be more troops, but we thought they 
were going to be Iraqi troops, that we would again have them 
assume responsibilities. That didn't happen, so I don't know 
that more U.S. troops would have made much of a difference at 
that point.
    General Schoomaker. I agree with that perspective. I was 
speaking in terms of history now that we saw what happened. Had 
that happened, it would have been great.
    Dr. Gingrey. Thank you, General, my time has expired.
    The Chairman. Whatever the case may be, we can't go back 
and unring that bell. That is a page in history that cannot be 
rewritten.
    The gentleman from Pennsylvania, Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today, and I thank you 
for your service. I am happy to know that your daughter, sir, 
is in my former division, 82nd Airborne Division, so I will 
keep her in my prayers.
    Gentlemen, all the rhetoric I hear from our Administration 
indicates the proposal to escalate the troops in Baghdad and in 
Al Anbar, so it is not more than a short-term surge.
    I know, General Conway, you said it is not a Hail Mary and 
shouldn't be used that way. The problem that I have with that, 
gentlemen, is last week we had at this committee, Dr. Kagan, a 
strong group supporter of the President's approach, and he 
noted that the operation to clear and hold the center of 
Baghdad is only the beginning of a larger effort to pacify 
Iraq.
    For example, Dr. Kagan points out that by securing Baghdad, 
we do nothing to bring Fallujah or Ramadi under control, and 
that the military action that may be needed to try to provide 
secure needs, in other words, it seems that the President is 
pushing a policy that will result in an extended escalation in 
the number of troops being deployed to Baghdad, not just a 
short-term surge.
    The problem with all these measures that we are talking 
about, and what is done to facilitate this, as you put it, 
General Conway, the occasional surge. So my question is, are 
there plans currently to accommodate longer-term troop 
escalations in Iraq beyond the current surge in Baghdad, and, 
if so, what are they?
    General Conway. We are concerned--our contribution to the 
Al Anbar province, has been essentially six battalions of 
trigger pullers and then the commensurate aviation and 
logistics support that goes with the construction of a Marine 
Corps, Marines air-ground task force.
    If that requirement goes to eight battalions on a constant 
basis, we are in the process now of looking at what that means. 
But I can tell you, it will make it more difficult, it is 
simply going to reduce our dwell time in the other battalions. 
It will put us, I believe, even below one-to-one, because we 
have other global commitments that eat up the numbers of 
battalions that we have available.
    So, ergo the difference, and you highlighted it well, I 
think, between a surge and a plus-up. If it is indeed a plus-
up, it is going to, indeed, make our future more difficult.
    General Schoomaker. I agree with that.
    Mr. Murphy. General Schoomaker, as you mentioned, when you 
said you pay a price in the backside, to the backside, would be 
not just in Iraq, but also then foreseeably, Afghanistan, 
especially when they are asking for more troops. Wouldn't that 
be accurate then?
    General Schoomaker. It would be accurate to say anywhere in 
the world that more troops are required there would be an 
impact.
    Mr. Murphy. What would you say the probability is that 
there is going to have to be plans for not just the surge, but 
a true escalation in Iraq, not just to secure Baghdad and Anwar 
but other sectors in Iraq?
    General Conway. Well, as I said about the Al Anbar 
provinces earlier, I think that there is success taking place 
now that we haven't seen in a number of years, two or three 
years in the Al Anbar province. How rapidly that will continue 
to take place, and how quickly we could get over the hump, if 
you will, in Ramadi, and even Fallujah, remains to be seen.
    But there are some very positive indicators out there, and 
I am just encouraged that this period of time that we expect 
the troops to be employed, I think, will be critical. But if we 
continue along those positive lines, it could be decisive.
    General Schoomaker. I was with the Army brigade in Ramadi, 
which is out with the Marines, first--the first--they are on an 
extension now. They reported to me great success, as commandant 
has said. The sheikhs are reaching toward the central 
government, they are turning toward al Qaeda. There is greater 
opportunity out there.
    When I talked to General Bakhtiar yesterday, the chairman 
equivalent for the Iraqi forces, he agreed. I asked him, is 
this real about his. He said, yes, it is real and a very 
positive kind of deal.
    I have already said what he said about the Baghdad 
business. He thinks it is different. He thinks that we do have 
a chance of success there.
    I would remind everybody that Iraq and Afghanistan are part 
of something that is much, much bigger. We are up against a 
very big strategic problem here with this deal. My view is, 
this is not a short-term deal, that we will be involved in this 
thing for decades, not exactly as we are today, but in some 
form or fashion. Iraq and Afghanistan are absolutely essential 
to the success of this strategy.
    Mr. Murphy. Sir, I think the question a lot of people have, 
though, is in Afghanistan. If we are taking our eye off there, 
and we anticipate, as was mentioned today, an escalation, or to 
spring from our enemy, and the commanders on the ground are 
asking for more troops, and we are not giving it to them, why 
are we giving it to them in Iraq but not there?
    General Schoomaker. Just remember that in Afghanistan the 
International Security Assistance Force (ISAF) has grown, the 
North Atlantic Treaty Organization (NATO) forces have doubled 
that are there. There is a different component going on in 
Afghanistan. Now that General McNeil is going there, this whole 
effort will be under one single unified command. He will be the 
ISAF commander. All of the forces will be under that in a much 
more cohesive, coherent effort.
    Mr. Murphy. Roger, sir. But even the British are asking for 
more troops from the Americans, I think it was 20,000, and we 
are not responding. That is accurate--is that correct, sir?
    General Schoomaker. I am not sure. There have been 
discussions about increasing forces in Afghanistan. When the 
decision is taken, we will make that assessment. But I don't 
know of any requests that the British have made for additional 
American forces. We don't have any knowledge of that.
    The Chairman. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman.
    As I understand it, the way the plan is to be laid out, by 
June, there will be approximately 41,000 American troops in the 
Baghdad area, 50,000 Iraqi troops, for approximately 91,000. 
How does the police coordinate with you all in that endeavor 
once if the force is up to that level by June. How will you 
deal with the police?
    General Schoomaker. The knowledge I have of the plan, as it 
was laid out, in a broad way, over the Christmas period, when I 
was there, showed that Iraq and the nine different compartments 
of Iraq, were going to be under the control or the plan had a 
unified effort between Iraqi Army and Iraqi national police 
entities, and that there was a unified command structure there, 
and that we fundamentally would be involved in both partnership 
and in embedded--you know, with embedded trainers with this.
    General Bakhtiar yesterday made it very clear that with all 
of that effort, things still are going to be required of the 
local police to remain present in the areas that we are 
working, and that will all be under the unified control.
    Mr. Calvert. How many police are in Baghdad?
    General Schoomaker. I would have to give that to you for 
the record.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Calvert. Will this troop increase directly or 
indirectly affect Maliki's government to keep his commitments 
to stop this political and sectarian violence that is taking 
place right now? Do you think that is a reasonable expectation 
that you can do this?
    General Schoomaker. Sir, I really have no knowledge. I have 
never met Prime Minister Maliki.
    Again, the Iraqi military indicates that they believe that 
they would deliver both politically and militarily on the plan.
    Mr. Calvert. Let me ask this one question, because I have a 
limited time. If, in fact, things didn't go as we expected, how 
would a retreat or defeat in Iraq affect commitments made by us 
throughout the world, and, generally, in the war on terror? How 
do you think that would affect how our enemy looks at us today?
    General Conway, would you like to answer that?
    General Conway. Yes, sir, I will. I think, unfortunately, 
there is a misperception of al Qaeda to a degree and other 
nations in the region as well, that they have momentum at this 
point, and that if we were to pull out of the Middle East, Iraq 
in particular, and without having succeeded, then I think we 
would lose a level of credibility.
    I think that our leadership as a superpower, would 
certainly be questioned. I think that our national interests, 
again, would be vulnerable as a result of that.
    Mr. Calvert. General.
    General Schoomaker. I certainly agree with that. I did 
mention to an earlier question, in response to an earlier 
question, that we in the United States have considerable joint 
military capability, and that the degree to which that can be 
applied to this strategic situation we had is important, you 
know, an important consideration.
    Again, I recommend that you take a look at the classified 
material that has been provided to the Congress, and look at 
chairman's risk assessment. I think it amply addresses this 
issue.
    Mr. Calvert. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Johnson from Georgia.
    Mr. Johnson. Thank you, Mr. Chairman.
    Generals, it is my distinct pleasure to be here today. This 
is the first time that I have encountered any of you, along 
with staff. I just want you to know that I support the military 
in terms of its readiness, or its need to be ready.
    However, I do have some reservations and some--I have never 
been in favor of the war in Iraq. That is pretty much 
irrelevant at this point, but I did want you to know that 
before I start my questions.
    Of course, the war, at its inception, was supported by the 
majority of Americans, but that level of support has declined 
over the years that the war has been in operation. At this 
point, it looks like maybe 68 percent of Americans are not in 
favor of this war.
    I would suppose that has had an impact on the ability of 
the Army, let us start with the Army, to obtain its recruitment 
goals; is that correct?
    General Schoomaker. Actually, my answer would be to the 
contrary. As I stated last year, 2006, we had the best 
recruiting in 9 years in the active force, and the best in 13 
years in National Guard. Indications are this year that we are 
in the proper glide path for success this year.
    Mr. Johnson. Well, in looking at my briefing memo in 
preparation for this hearing today on page six, it talks about 
the fact that the Army remained the service with the greatest 
recruiting challenge during fiscal year 2006. Although the Army 
achieved its accession goal of 80,000, it failed to achieve its 
goal for new recruit contracts by 20,128 or 17.8 percent. Would 
you disagree with that figure?
    General Schoomaker. Well, I think, first of all, you have 
to understand that the Army always has the biggest challenge, 
because if you added up all the recruits the Marine Corps has, 
all of the recruits the Air Force has, and all the recruits the 
Navy has and add them together, we recruit more soldiers every 
year than all of them put together. So got a big challenge.
    Mr. Johnson. I understand the challenge.
    General Schoomaker. The second thing is----
    Mr. Johnson. But I would like to know whether or not that 
figure is correct. Did you fail to achieve your goal for new 
recruit contracts by 20,128 in 2006 fiscal year. Is that true 
or false?
    General Schoomaker. I don't know, since we were successful 
in our goal, I don't know how we could have failed to do that. 
So I don't know what that is. But I would be glad to have it 
checked out and give it to you for the record.
    Mr. Johnson. I also want to get some clarification. You 
stated that 100 percent of the recruits in fiscal year 2006 had 
a high school diploma or equivalent, I believe you may have 
qualified that, but according to figures that I have----
    General Schoomaker. Eighty-one percent have high school 
diplomas. The rest of them have equivalencies.
    Mr. Johnson. Actually, your target or Department of Defense 
goal is 90 percent high school diplomas.
    General Schoomaker. That is correct.
    Mr. Johnson. But yet 2006 fiscal year, 81 percent.
    General Schoomaker. And all of the rest of them have 
General Equivalency Diploma (GED) or equivalencies. Every 
soldier is a high school graduate, but 81 percent of them have 
actual high school diplomas. The rest of them have gone through 
equivalency testing.
    Mr. Johnson. They obtained those equivalency exams before 
or after they are recruited?
    General Schoomaker. Before they were recruited.
    General Conway. Sir, if I could comment, you are correct in 
terms of our studies reflecting propensity for whites, for 
blacks and for Hispanics. All, we show the propensity to want 
to join the service is down in recent months.
    I think that just reflects the great job that the Army and 
Marine recruiters are doing out there in order to be able to 
achieve our recruiting goals on an annual basis. We have a 
little bit of a dynamic at work there.
    General Schoomaker. If I could just say something here, in 
the 1980's----
    Mr. Johnson. Real quick, let me get this question in real 
quick.
    General Schoomaker. We were recruiting 50 percent at force, 
greater than 50 percent. Today we are doing less than 4 
percent, big difference.
    The Chairman. Thank you. Mrs. Miller.
    Mrs. Miller of Michigan. Thank you.
    Gentlemen, thank you both for your attendance here today. 
We certainly appreciate your service to our Nation here. I know 
we are here to talk about readiness of the troops. Certainly, I 
have a question about that. I am not sure we will be able to 
get to it.
    I just want to take this opportunity to ask a general 
question of you both about the President's strategy for the 
surge.
    I think there are a lot of us who are expressing some 
consternation about the way that we are trying to understand 
how the surge is actually going to be implemented, perhaps 
because there is not a comfort level about timelines and 
deadlines and consequences to the Iraqis if they don't meet 
various parts of the matrix, as you begin to benchmark some of 
these things.
    I am not going to tell you how old I am, Mr. Kline, but I 
will tell you I am a product of the Vietnam era, and I am not 
trying to draw any analogies between this and Vietnam, but one 
of the lessons, I think, that our Nation learned during Vietnam 
is that we saw an unfortunate circumstance where you had the 
politicians micromanaging the experts, the military experts and 
the commanders in theater.
    I just am trying to understand, or perhaps you could tell 
me, how do you feel, honestly, about the surge strategy? I ask 
that particularly because General Schoomaker--and I don't want 
to mischaracterize what you testified last week--but I did read 
somewhere where you said you thought we had a 50/50 chance of 
success with that strategy?
    I am not sure if that is a correct representation of what 
you said. I guess I would just is like to try to get a better 
handle on making sure that our military commanders, that this 
is their strategy, not a political strategy.
    General Schoomaker. Well, at some level, you don't divide 
the two. We have civilian control of the military in this 
country, and both of us, as members of the joint chief of staff 
and I can assure you that we provided our unvarnished advice to 
the Commander-in-Chief and to the leadership of the country on 
what we--what we thought about this. The Commander-in-Chief has 
made a decision on this. We are now in the business of making 
sure that we are successful.
    I would categorize--and I am not going to comment on the 
50/50 business because--whether I said it in a closed hearing 
or I said it here, but I would tell you there is no question in 
my mind that the United States Army, the United States Marine 
Corps and the other military elements that are here are going 
to deliver on our part of this.
    As has been properly pointed out, the question is, will the 
Iraqis deliver and will the other interagency parts of our 
government deliver in a coherent, counterinsurgency commitment 
and strategy to this? Therein lies the question.
    As we watch this unfold, I think we need to make continual 
judgments about whether we go forward, sideways or backwards, 
whatever we do. I know there is adequate flexibility for us to 
make those judgments as we go through it.
    General Conway. I think the process was about right. I 
think it is fair to say we had a tremendously productive 
session with the President when he visited us in the tank. It 
was extended beyond the time that was allocated for it. I think 
we all felt very good about it walking out.
    On the heels of that, you saw General Pace and the new 
Secretary of Defense go into the theater to go eyeball to 
eyeball with our commanders there. When they came back, they 
went to Crawford, Texas, and decisions were made.
    So I think there was a great deal of vigor that went into 
all the possible courses of action out there before the 
Commander-in-Chief decided. I would also highlight that we had 
two tremendous commanders in theater, who are reaching--really 
they are beyond their expected time in Iraq in the case of 
General Casey and still in the case of General Abizaid--so with 
new commanders coming on and the new strategy that the 
Commander-in-Chief has opted to invoke, I think we are anxious 
and optimistic about the outcome.
    Mrs. Miller of Michigan. Thank you, since I just have about 
30 seconds left, let me ask a quick readiness question about 
guard and reserve.
    General Schoomaker, you had mentioned in your testimony 
that about 55 percent of the Army's capabilities are reserve 
components. I thought it was in the 30 percentile, so I am 
sorry, I did not understand that. I guess it is 30 percentile 
of guard and reserve that are engaged in theater.
    I would be interested to know, General Conway, what is a 
similar number in Marines?
    General Conway. You are right, ma'am, it is about a third. 
We have 39,000 active reserve out of a baseline strength of 
175,000, so it is roughly about a third.
    Mrs. Miller of Michigan. I just ask that question. It is 
very interesting. I actually have a guard and reserve base in 
my district. When we think about the deployments and 
redeployments that they have been engaged in, this committee 
has done everything that we possibly can to achieve parity for 
the guard and reserve. We certainly want to continue with that 
commitment.
    The Chairman. The gentleman, Mr. Courtney from Connecticut.
    Mr. Courtney. I want to thank the chairman and thank the 
gentleman for their presence today and endurance.
    I want to just will follow up on what Congresswoman Miller 
was describing, sort of an attempt by, I think, a lot of us and 
people across the country to understand the sequencing and 
timeline and approach that is being taken here with the surge.
    When Secretary Gates was here, certainly the impression I 
took from his testimony was that there was going to be some 
attempt to sort of measure the Iraqi performance, and that 
there was sort of a pipeline that would maybe be turned on or 
off depending on how well the performance was demonstrated by 
the Iraqi Army, which, again, I think a lot of people have 
concerns about.
    This morning's Washington Post has an article about General 
Petraeus' testimony before the Senate, and, basically indicates 
that he really has no plans to really measure that performance, 
he is just going to--in fact, the term that is used here this 
morning is he will be ignoring any Iraqi shortcomings and 
asking for all five brigades of the U.S. planned 
reinforcements. The comment was to do what has to be done. They 
all have to go.
    It seems to paint a much different picture than what I 
think was presented initially, which is, again, we are going to 
be sort of tying this to some degree to the performance of the 
Iraqis. I mean, Congressman McHugh asked the question earlier 
about, you know, what contingencies are sort of left for us, 
if, in fact, they don't show up and they don't perform well.
    I just wanted to see if you had any comments about those 
press reports this morning about General Petraeus' intention, 
how that sort of fits in with what the plans are.
    General Schoomaker. First of all, I am unfamiliar with the 
press reports, but I know General Petraeus. I know he is 
thoughtful. I know that his judgment will apply and that I also 
know the manner in which these forces are flowing, and I know 
that we have adequate time to gauge the flow of these forces in 
either direction.
    General Conway. Sir, with all due respect, I don't 
necessarily believe what I read any more entirely.
    I also know General Petraeus. I served with him in Iraq. He 
is very thoughtful. I will be surprised if he doesn't do a 
series of metrics on a daily basis that determines for him the 
progress, particularly in and around Baghdad.
    Mr. Courtney. I hope you are right.
    I have one other question, which is, General Conway, in 
your written testimony, you, I think, very thoughtfully 
described the quality of life issues which is part of our 
military readiness and talked about the assistance that has 
been given to wounded soldiers and their families which for 
peace of mind who aren't wounded I think is an important 
service to be provided. But the Army Times has an article, it 
is reported January 20th, which indicates that the Defense 
Department is closing the Military Severely Injured Center. 
Workers were told last Wednesday to close up their case files, 
and their layoffs were affected on Friday.
    I didn't know whether you were even aware of that change 
that took place and the layoff, but it certainly seems that, if 
people have active cases, it suggests that their services 
certainly weren't redundant, and it seems to be headed in the 
wrong direction, particularly at a time when the violence seems 
to be increasing.
    General Schoomaker. Where is this center you are talking 
about?
    Mr. Courtney. Arlington, Virginia.
    General Schoomaker. I am unaware of it.
    Mr. Courtney. I would be happy to share this article with 
you for the record.
    [The information referred to can be found in the Appendix 
on page 95.]
    Mr. Courtney. I will yield back the rest of my time, Mr. 
Chairman.
    The Chairman. The gentlelady from Virginia, Mrs. Drake.
    Mrs. Drake. Thank you, Mr. Chairman.
    Generals, first of all, thank you for being here with us 
today and thank you for your service.
    General Conway, last night, I read an article that was in 
the Marine Corps Times that has a lot of quotes from you in it 
about every Marine into the fight. What really caught my eye 
was the paragraph that says--these are your words, ``Frequent 
deployments and short-term periods have been the norm when they 
join our Corps. Marines expect to train, deploy, and fight. 
That is who we are. That is what we do. We must allow every 
Marine that opportunity.''
    The reason it caught my eye is because that is exactly what 
I have heard on my two trips to Iraq across the services, 
though not just for Marines but from everyone that I have 
talked to. They use that term, ``That is what we do.''
    I think our perception on this committee--because we 
thought the sacrifice that our men and women have made is that 
they have been over-extended, they have been sent repeatedly, 
that it has been very, very, difficult for them. Yet you read 
in this article that Marines are actually complaining that they 
haven't been able to deploy, and then you go into the numbers 
that out of a 175,000 permanent troops, about 66,000 have not 
been deployed.
    So my question is if you could expand on this article a 
little bit; and I would also like to ask, is there some way we 
can get this into the mainstream media so that Americans can 
see what truly brave men and women we have serving today?
    General Conway. First of all, I would qualify the 66,000 
number, because my manpower did for me, by saying about half of 
those people are in what we call victory units are headed to 
Iraq or Afghanistan in a relatively short period of time. So 
that cuts the number about half, about 30 to 35,000. But even 
that, in my view, is still a significant number against an end 
strength of 185,000. So our thought process is we have got to 
engage those folks to our best of our ability to do so and 
relieve some of the deployment tempo on some of the Marines 
that have been two, three, four times at this point.
    Now, the manpower people will tell you that the military 
occupational specialty doesn't match up well or that individual 
may be critical to a need elsewhere. There are a host of 
reasons. I won't call them excuses. But we want to blow past 
those and get these people the opportunity to, one, get into 
the fight and, second, help relieve some of these deployment 
tempo experiences that we are seeing.
    Mrs. Drake. I think when we see Navy personnel that are 
serving on the ground of Iraq--so is it a training issue? They 
haven't been trained.
    General Conway. Part of it. No, every Marine is trained as 
a rifleman first. That allows them with the additional training 
to go into theater and do a job for us. Part of it is a 
turnover.
    Again, I think I commend the opening comment that we have a 
70 percent first-term force so a lot of those people are 
relatively new to the Marine Corps. But, again, they joined 
since 9/11. My view is they probably came in with the 
expectation that they were going to fight for their country. I 
think we need to afford them the opportunity.
    Mrs. Drake. General Schoomaker, I know that there is sort 
of a proposal out there by some Members not to go into Baghdad 
with our forces but to focus on Anbar where we know we are 
fighting al Qaeda. Do you think that would be workable at all 
to--and I think the concern is that this is an Iraq-Shi'a-Sunni 
conflict and why should our men be in the middle of that. But 
my thought watching it is, when we have 80 percent of the 
violence there, that that would not be a workable solution, 
that we have to deal with the violence where it is and that the 
goal in embedding these troops are to train the Iraqis and give 
them the combat experience with us standing behind them.
    General Schoomaker. Well, first of all, the commanders on 
the ground are making the judgments on that. My opinion from 
where I sit--and I am not there day to day--Baghdad is either 
the center of gravity or the culminating point, either way that 
you want to look at it.
    It has been said that over 90 percent of the violence 
happens within a 30-mile radius of Baghdad. I don't know how we 
can approach the end state that we desire in Iraq, which is a 
unified country that has to exercise sovereignty, being an ally 
in the war on terror and be a good neighbor in the region, 
without dealing with the center of gravity. So it is incoherent 
to me that we would separate the two.
    Mrs. Drake. Thank you.
    The Chairman. Thank the gentlelady.
    The gentleman from Maryland, Mr. Cummings.
    Before Mr. Cummings, by my count, there are eight members 
who have not had the opportunity to ask questions; and there is 
a very important panel that will follow that has three 
witnesses. I urge you to do your best to be present for them, 
because we look forward to hearing from a soldier and some 
spouses.
    I am also told that we would have votes between 1 and 2 
o'clock. So we will go on from then.
    Mr. Cummings.
    Mr. Cummings. Thank you very much.
    I want to thank you for your service. On behalf of the 
American people, we really do appreciate what you and the men 
and the women in the service are doing.
    One of the things that, as I listened to you, General 
Conway--I have listened to all of the testimony this morning, 
and one of the things that I see, that there is apparently a 
disconnect. And you said it pretty much. You said that we were 
talking about how long this would go on in Iraq. I think that 
was what we were referring to.
    You talked about a timeline and what you saw as a timeline, 
how long it might go on; and then you said that--but the 
American people seem to have a different timeline. The American 
people's timeline is filled with impatience, as you probably 
are well aware. And I was wondering, what is it that--and I 
think the American people have gotten to a point where they 
have begun to lack trust.
    In Covey's book entitled The Speed of Trust, he talks about 
how important trust is. And in some kind of way we need to try 
to connect these two, that is, the American people and you, 
just brilliant generals, who have the President's ear.
    I am just wondering, what is your timeline and how do you--
it has got to concern you that the--you know, when you read the 
papers and you hear the poll numbers that it has got to concern 
you that there may be some kind of disconnect here. Because you 
all are seeing one thing and the American people are seeing 
something else.
    What do you see as a timeline, General Conway?
    General Conway. Sir, if you study insurgencies over time, 
it is traditionally somewhere between about 8 and 12 years 
before an insurgency is sufficiently countered or conquered and 
a fledgling nation is able to get on its feet, create 
stability, bring on economic conditions such that the country 
can then survive. I think that is probably reasonable if you 
look at our Nation and our own history, how long it took us in 
the Continental Congress until such time as we were a viable 
Nation.
    I think it is certainly going to take more than the two or 
three, three or four years that we have seen and probably safe 
or sure but historically close to a decade.
    Mr. Cummings. On another subject, you both have mentioned 
some specialized equipment will need to be cross-leveled among 
the units in Iraq; and I would assume that you have not 
overequipped those units. So will they now be doing the same 
mission with less? Will the units lose armored vehicles or 
other equipment? Do you follow what I am saying?
    General Conway. I do, sir; and those types of items I have 
scrutinized myself. There are 14 or 15 items. They are sniper 
rifles. They are enhanced night vision devices. There is some 
armor, but there is enough armor that it can't be spread load. 
It is the assessment of General Zilmer, our commander in the 
west, that those items can be sufficiently spread load amongst 
the two additional battalions, that one battalion will be able 
to accomplish the missions and do so without undue personal 
risks.
    Mr. Cummings. About the Humvees, I think you mentioned--who 
said something about 2012? What was that date? Is that the date 
that we expect to have the best Humvees available? Was that the 
date? 2012?
    General Conway. Sir, my reference to 2012 had to do with 
our barracks and the completion of the barracks that we have at 
this point on the docket for build.
    Mr. Cummings. Let me talk about Humvees for a moment. In a 
Baltimore Sun article dated January 21st, it says, interviews 
last week with sea, Army and Marine Corps officers acknowledged 
that they are struggling just to meet the needs of service 
members already in Iraq. Even if the Pentagon can find millions 
of dollars not currently budgeted and even if it can find 
factories to produce the armored vehicles, most U.S. troops in 
Iraq will not have access to the best equipment available.
    Is that accurate?
    General Conway. Sir, I will tell you that Marines do not go 
outside the wire in the Al Anbar province unless they are under 
protection from either an up-armored vehicle, M1114 or a 
Humvee, with what we call a Mach 2 kit, which actually provides 
more side protection than does the up-armor Hummer.
    That is by direction of the commanding general.
    Mr. Cummings. Thank you very much.
    With that, I yield back.
    The Chairman. The gentleman from Kentucky, Mr. Davis.
    Mr. Davis of Kentucky. I remember back in the 1970's and 
1980's when we suffered many of those issues related to flight 
hours and parts. I still suffer Post-Traumatic Stress disorder 
from the character-building opportunity that General Shampo 
gave us as he sought us more time in the war pit for those of 
us who needed to grow in character.
    But, practically speaking, you are right. It is a totally 
different force. It is amazing what our young people are doing.
    Rather than talk about the specifics of current operations 
in Iraq, the perspective that I would like to go to is maybe 
something a little bit bigger, maybe looking back in Haiti in 
1994, issues we dealt with in Somalia, Iraq, Afghanistan, 
things I have personally seen on the ground. Two things come to 
mind, and I think particularly whether the Army force 
generational model has been stressed to where it has exposed 
some other constraints in the national security process; and 
what I would like you to comment on is really two-fold, please.
    First of all, the traditional struggle within the Army--I 
am not sure to what point in the Marine Corps it is an issue 
between what I would consider the Special Operations Forces 
(SOF) communities civil affairs side of things and the big Army 
conventional missions versus being structured for more 
unconventional classic counterinsurgency. The current military 
structure focus is much more on big war, and we are seeing 
field artillery, what battalions being converted to military 
police (MPs) or transportation units but also concerned about 
the interagency process. How do we structure practically to be 
able to respond to really what I believe are the strategic 
threats or the management of most of our strategic threats and 
the latitude 1040 window, operations other than war low-
intensity conflict, constabulary operations, things like that?
    General Schoomaker. Well, I can comment quickly. I spent 
most of my life in Special Operations; and, you know, prior to 
this job I was Commander-in-Chief of U.S. Special Operations 
Command, where I was in charge of all services, Special 
Operation Forces. The Chief of Staff in the Army--we are 
growing our part of SOF by about 14,000, and that is coming out 
of our Army end strength, and we are creating additional five 
battalions and other special ops, aviation, double in the civil 
affairs companies, creating another equivalent of battalion of 
Rangers and psychological operations forces. So we are 
investing heavily in that.
    The next thing I would tell you is that I have never seen a 
better relationship between our Special Operating Forces and 
our general purpose forces than we have today. That is on the 
battlefield, that is in the training arena, that is in every 
venue.
    Third thing, I will tell you the Army and the Marine Corps, 
in my opinion, have made huge shifts in terms of we have shown 
great adaptability and agility and have adapted to the world 
that we are away from the Cold War force. Anybody that thinks 
that we are continuing Cold War methodologies thought, you 
know, organization or anything else doesn't understand what it 
is that we have done in both Marine Corps and the Army, in my 
view.
    Mr. Davis of Kentucky. I am not questioning that. I am a 
bit amazed at the resilience of all training, from initial 
entry preparing troops for practical missions. It is remarkable 
how well that is being done. I am thinking more from a 
strategic perspective the force structures and how we go into 
this issue with, again, the interagency to address issues that 
are beyond the military mission.
    General Schoomaker. Well, there is an awful lot written and 
talked about and frustration that everybody has with the 
interagency, and it has to--transform capabilities have to be 
developed, and I think Secretary Rice has talked about it. I 
think she has talked about the things that need to happen.
    As we have said, in the kind of threat that we have got as 
we go forward and the kind of challenges we have got, it is 
going to require a kind of interagency and a coalition in its 
approach. And there are limitations in terms of what the 
military can deliver. You know, we can overdeliver to a point, 
but then you have to have these other components come in to 
deal with the other elements of power.
    Mr. Davis of Kentucky. My final question along this line 
is, do you feel that other supporting agencies--State 
Department, Treasury, Department of Justice--have an adequate 
planning capability, operational planning capability to support 
these types of operations and a personnel policy that would 
support that?
    General Schoomaker. In my view, they don't.
    Mr. Davis of Kentucky. Thank you. I yield back.
    The Chairman. From my observation, General, I would 
certainly agree with your last answer. That was from early on I 
have seen that very lack of coordination and cooperation.
    The gentleman from Indiana, Mr. Ellsworth.
    Mr. Ellsworth. Thank you, Mr. Chairman.
    And I would echo the sentiments of your panel and thank you 
all for your service.
    I think a lot of the frustration--we heard testimony the 
other day in this panel that one of the gentlemen who was 
responsible for checking on the equipment and the 
accountability of equipment in theater was having trouble going 
outside the Green Zone and so he was unable to check on things 
outside the Green Zone. It sparked a question of me. Over the 
course of this campaign, would it be possible, General, to 
describe the Green Zone and how it has fluctuated, if it has at 
all, since this campaign began? Whether it has shrunk, grown? 
Because I would think one measure of success is how much area 
is safe in theater. And would it be possible yearly, every six 
months, what it has done? If that is possible to address, to 
describe, verbally, I guess.
    General Schoomaker. Well, I don't spend time in the Green 
Zone; and I don't have a clue about how big it is, how small it 
is or what--I have an idea of what happens inside there. But I 
don't know.
    You are not talking about a military person that had 
trouble getting out and checking on equipment, because we have 
got teams all over the country that are certainly not in the 
Green Zone. We don't have anybody in the Green Zone that I know 
of that is checking on equipment. So I am not quite sure who 
you are talking about there.
    But, you know, the place is dangerous. I mean, there is an 
active insurgency going on in the country. Parts of the country 
are less dangerous than other parts, not unlike Washington, 
D.C. I mean, there are places you don't want to go other than 
in numbers with the proper equipment, and so I don't know quite 
how to answer the question beyond that.
    Mr. Ellsworth. Okay. Maybe I could say, would that area, 
that it is--no area is safe, that the insurgents are getting 
into what we consider a safe area. Maybe it is safe today; 
maybe it is not tomorrow. There is not an area that has spread, 
saying we have secured this and now we have secured more and 
now we have secured more?
    General Schoomaker. I think the Green Zone, I think, is 
very secure. I mean, that is the seat of government and where 
our embassy is there and the rest of that. It is not a military 
facility. There are a lot of contract guards, and there are a 
lot of procedures there. But, obviously, our forward operating 
bases are secure; and we secure them so that, you know, we have 
got bases to operate from. They are more secure than other 
places.
    But I will tell you that depends on where you go in that 
country. There are various degrees--I don't know anywhere that 
there is any guarantee of security because, as you know, we 
receive on occasion rockets and mortars and other kinds of 
things in the very secure areas.
    General Conway. I think that is a very large juncture of 
the country in Baghdad but especially outside of that that have 
been handed over to the Iraqi security forces for primary 
responsibility. They have outposts. They have police stations. 
They have their own barracks facilities, those kinds of things. 
But they operate outside of Baghdad in particular on a routine 
basis.
    But General Schoomaker is exactly right. The problem is 
where the insurgents happen to be on any given day.
    It is interesting to watch in the background of some of the 
reports that come into our TV media in terms of what is 
happening just in the wake of an incident and you will see a 
level of normalcy that the people are experiencing even though 
it is a very dangerous place.
    Mr. Ellsworth. Thank you.
    And, General Conway, if you would elaborate something you 
said a few minutes ago. I was trying to write it down. But you 
were talking about, if we pull out before we succeed, al Qaeda 
would then flourish and grow and take over. Can you help me--
and that is something we have been asking for a long, long 
time. What is the ``success''? Is that when we capture or kill 
all of al Qaeda? Or help me with the ``success,'' please.
    General Conway. Sir, I would rephrase perhaps what I said 
earlier about what the commander in Iraq sees as success, and 
that is a stable nation able to govern itself ideally through 
democratic principles, but it will be uniquely Iraqi. However 
that settles out, I am satisfied. Economic institutions at work 
and essentially not a safe haven for continued operation by 
terrorists who are there now. I think if we can achieve those 
three or four elements, then it will be a win for the Iraqis. 
It will be success for us.
    Mr. Ellsworth. Thank you both very much.
    The Chairman. I thank the gentleman.
    The gentleman from North Carolina, Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service, particularly the men 
and women you represent.
    Talk a few moments, if you will, about a couple of key 
issues. The new plan going forward. What are the key points 
that make this plan new? I am supportive of the plan, but, from 
your perspective of the Army and the Marine Corps, what are the 
key elements of this new plan that are new, that make it new 
and the reasons that come from that that this will be 
successful?
    General Schoomaker. I will speak to Baghdad very quickly, 
and then the Commandant will talk about Al Anbar.
    Basically, in the clear plan for the clear hold and build 
construct that you often hear people talk about, the 
fundamental difference here is not in the clear problem. It is 
in the hold and build. And the commanders on the ground and 
those that I have talked to feel that is the significant 
difference.
    Mr. Hayes. They hold. That is what you are saying?
    General Schoomaker. We help them clear, hold, and resources 
come in to build so that--and then people stay. You know, the 
business here is that you go in and do what you accomplish and 
somebody stays so that the reconstruction can continue and the 
building can continue. And I think that is a fundamental 
difference in it.
    Mr. Hayes. And this is the Iraqis holding. That is a huge 
difference. That is a huge difference.
    General Conway.
    General Conway. Sir, there have been surges in the past, 
but the troop surges that we have seen before have had a 
specified objective normally related with election security, 
and we have seen the forces come out fairly rapidly on the 
heels of this. This time it has got an operational design on 
this intended to take down the bad guys in Al Anbar and 
Baghdad. So we are seeing a surge or plus-up for a different 
reason this time.
    I think what is different about it in Al Anbar is again 
this issue of success that we have had both out on the border 
and in Ramadi and arguably in Fallujah where in the past, where 
we have had success, there has been a place where the bad guys 
could go, reconstitute and replay the game of ``whack a mole'' 
to a degree. With the ability, now, to force them out of places 
with the help of the Sunni tribes and Sunni police and they 
will restrict their ability to regroup in any form or fashion 
in Al Anbar, that is going to be new, that is going to be 
different.
    Mr. Hayes. The military leadership under the new plan with 
the three generals in Baghdad, that to me is a significant 
increase as well. And trying to get people to talk about the 
ratio of American forces, the plus-up to the Iraqi force plus-
up, which is significantly more than we are doing, I would like 
to see even more. Can you speak to that briefly? And then the 
lead indicators, not the lag indicators, that people at home 
were very concerned for a whole host of reasons, can look at as 
measuring points that this is something that we are doing.
    General Conway. I went to a dinner last night sitting next 
to an Iraqi officer that said there are three Kurdish brigades 
that are coming down out of the north into Baghdad. That, to 
me, is a good signal. Because those aren't seen as Kurdish 
brigades. They are seen as Iraqi brigades employed elsewhere in 
the country, and they see it as a net positive. Plus we believe 
those are pretty good brigades.
    Mr. Hayes. Speak to Sadr people coming back to the table in 
the militia, at least going through some motions of disarming 
themselves, that is significant. It is kind of unreported at 
this point.
    General Conway. I don't have details on that. I don't know 
if General Schoomaker does or not.
    General Schoomaker. I only know, again, conversations with 
Iraqis yesterday--again, that was a question I asked, you know; 
and his indication was that that is part of this, you know, 
ideally political accommodation.
    Mr. Hayes. Last but not least, you spoke earlier, General 
Schoomaker--I think you were saying we need to get MILCON 
construction up and going not under the CR. You mentioned Ft. 
Bliss, Ft. Bragg got a huge dent in the very necessary armor; 
and anything that you and General Conway--and, of course, 
Marines are very important to help push that through, and it is 
critical to make it go through and pass that bill and it not go 
into CR.
    The Chairman. I thank the gentlemen.
    I think just punting the football on to us on that issue.
    Mr. Sestak from Pennsylvania.
    Mr. Sestak. You had mentioned we are a much more capable 
Army today because of this fast investment we have had. If you 
were able to just remove Iraq, just remove it, would you then 
say we are then therefore a much more secure America, much more 
responsive military than five or six years ago?
    General Schoomaker. Well, I would say that we are a much 
more capable military with Iraq.
    Mr. Sestak. I am asking if you were able--if Iraq 
disappeared because of this investment we made, are we a much 
more better military, able to beat the war plans better if Iraq 
were not there because of this investment?
    General Schoomaker. Of course. There is significant demand 
on the forces there, but let me say that, as I said a minute 
ago, that this is much bigger than Iraq and Afghanistan.
    Mr. Sestak. I was going to come to that.
    General, you said that if we removed ourselves from Iraq, 
it is going to spiral into civil war. These weren't your exact 
words, but it is going to become--things will spill over. Is 
that a military assessment of yours or political military 
assessment?
    General Conway. Sir, my comments are tied to what we note 
to be the strategy of al Qaeda, and that is that they want to 
eject western influence from the Middle East. They want to 
destroy Israel. They want to choke off oil supply and bankrupt 
our economy. So, with that, there is an announced strategy. I 
think we need to be looking at how we counter that.
    Mr. Sestak. So you have taken the capability to do that 
into account, not just the word militarily?
    General Conway. Absolutely.
    Mr. Sestak. General, a question I have, particularly with 
your background. The shaping that the military, the Army and 
the Marines, have done over the years, absence of war, the 60 
countries at a time, has this been impacted by our involvement 
in Iraq beginning to get to where you were going?
    General Schoomaker. Yes, and it has been focused in areas 
that are directly related to the broader long war, the global 
war against extreme violent extremism. That is where our 
shaping efforts are going, but I would say some of those that 
traditionally we have had have lesser priority today as a 
result of that.
    Mr. Sestak. Does that have an impact on our ability to be 
more secure? Because you put a lot of time over the years and 
as shaping strategy, specifically special forces as throughout 
the world, countries that were not involved, in a sense, with 
conflict, but, you know, the peacetime shaping.
    General Schoomaker. I am not sure it is that easy to answer 
that way. I think that our shaping efforts and our efforts in 
fact are making us more secure, because they are focused on the 
problem we have.
    Mr. Sestak. Got it.
    My next question comes back to the trends. The Congressman 
had brought up the question on high school diplomas and all. 
Back in 2004, at least 92 percent of our incoming recruits had 
high school diplomas. Now we are down to 81 percent. Still 
great men and women. But you have done so much with Future 
Combat Systems (FCS) and modularity in trying to have a 
military based upon technology and yet the trends are that 
those coming in are perhaps not quite the same ilk in terms of 
educational prowess as might have been before to what the 
standard had been, the 90 percent. But I have also watched you 
and the Marines focus so much upon with FCS and modularity and 
the agility to do things. As you talk about our readiness to 
respond absent shaping the peacetime shaping, where hopefully 
you are preventing us to go to war because of the good shaping, 
are we impacted upon that speed of response to where Saddam 
Hussein, if we were able to respond more readily before we went 
into Kuwait, we might have been able to preclude our still 
being there?
    I ask that question because of the readiness money that we 
are pouring in to where it has gone from--as you know, it is 
$14 billion, soon to be, per month if the operations 
maintenance division (OMD)--the next supplemental we heard is 
going to join the $70 billion, the $10 billion for the reset, 
the $6 million for the recon, the $10 billion for the increase 
in forces. When you look at all of that investment that we put 
into the military, do we have the speed and the agility by 
remaining in Iraq to meet the future responses we need of which 
you were trying so hard with FCS modularity and seabase to try 
to achieve?
    The Chairman. You can answer the question in a couple of 
words.
    General Schoomaker. I can't do it in a couple of words, but 
I will tell you that, number one, obviously, the demand in Iraq 
has an impact on our ability to do other things. I testified to 
that.
    Second, we have the finest non-commissioned officer corps 
today that we have ever had. They are a product of a time in 
the 1980's when we had far less high school graduates than we 
have today and where we had 50 percent category 4. That is what 
the basis of this current noncommissioned officer corps is. The 
Army has something to do with how people turn out. It is not 
just----
    The Chairman. I thank the gentleman.
    General Conway, I am a bit concerned about putting all of 
the eggs in the basket of al Qaeda when is it not a fact that 
al Qaeda is not a part of the Sunni insurgency and that 
overlying all of this is the sectarian violence between the 
Sunnis and the Shiites and the Shiites versus Shiites. I am 
just concerned that in your comments that you are laying it all 
in one basket when it is far more complicated. Am I correct?
    General Conway. Sir, what I was referring to was the al 
Qaeda strategy. Certainly that is separate from the enemy that 
we face in Iraq.
    The Chairman. Mr. Jones.
    Mr. Jones. I will be quick, because I know we have a second 
panel.
    I want to say to both generals, thank you so much for being 
here today. This is toward the end. I sit here in amazement.
    Last week, we had the Inspector Generals of the United 
States, Secretary of State, Departmentof the Army and then 
David Walker. And I sit here and listen to your needs and the 
needs of our men and women in uniform, and my mind keeps going 
back to what they said about President Reagan. That when 
President Reagan--he actually probably brought the Soviet Union 
down on its knees economically. He broke the economy of the 
Soviet Union.
    Last week, I was not able to be here for the time, but I 
have heard David Walker say publicly that if this Nation today 
had to write a check to pay off the liabilities and 
obligations, if they had to write the check today, the check 
would be for $43 trillion. And I sit here and I am wondering--
--
    You--all of our men and women in uniform are heroes, Every 
one of you. But I wonder how much, Mr. Chairman, a Nation can 
call upon the military and say, you go here, you go there, you 
fight, you know, try to bring democracy to a Muslim world that 
the English said--I mean, they gave up in 1920, and I have 
heard some--read some comments from Churchill and what he said 
about Iraq. And this is the couple questions, and then I am 
through.
    I used this last week--and you gentlemen have been to Iraq. 
You will probably go back and forth. This was Lieutenant 
General Jay Garner, and he is quoted in the Washington Post as 
saying--and I will read quickly, ``You will never find in my 
lifetime one man that all of the Iraqis will coalesce around. 
Iraqis are too divided among sectarian, ethnic and tribal 
loyalties. And the loyalties are regional, not national.'' You 
are not the policymakers.
    I wish that they wouldn't--in fact, Mr. Chairman, I put a 
bill in recently that I hope this committee will consider, to 
say that the Secretary of Defense--that anyone that has been in 
the military, that three years after serving in the military 
that their name could be submitted to the Senate by the 
President. Because I think--and this is not to slam Mr. 
Rumsfeld. I was not a fan of his, and I am glad he is gone.
    But the point is, when I sit here and listen to you men and 
women in uniform who are leading this military nation, I think 
that maybe if this bill should ever become law--now you have to 
wait ten years before you could choose someone that has served 
in the military to be considered by the Senate, by the 
President to serve as Secretary of Defense. But when I listened 
to you gentlemen, you are experts. You know today what the 
military needs. You know what the military needs tomorrow and 
five and ten years down the road. You should be able--Mr. 
Chairman I hope you will bring that bill up at least for 
hearing. You should be able to be chosen by a President to sit 
in as Secretary of Defense.
    This is my question to both of you. I have listened to my 
colleagues. They have asked great questions. You have given 
great answers. But the whole issue is this: Give me your 
opinion, that if we had never gone into Iraq and we had put a 
hundred thousand troops in Afghanistan four years ago, as we 
did a hundred plus in Iraq, would Afghanistan be in a situation 
where it is possible to say in a few years it would be a 
success if we would put the 130,000 in Afghanistan?
    General Conway. Sir, I will start and say it is conjecture 
only. You pose a hypothetical situation. I will give you a 
hypothetical answer and say there are national borders there 
that make success in Afghanistan very complicated.
    General Schoomaker. I met with President Musharraf this 
last trip during Christmas, had a long conversation with him. 
My answer to you would be probably not. This is much bigger 
than a choice between Iraq and Afghanistan. We truly have a 
global problem here that is growing, and it is going to come 
home. We must work this thing, and it is going to take a long 
time. I don't think the answer is as simple as what you 
postulate.
    Mr. Jones. Thank you.
    The Chairman. Thank you.
    Ms. Shea-Porter of New Hampshire.
    Ms. Shea-Porter. Thank you, Generals, and I appreciate your 
service.
    I will tell you that sitting here listening to all of you 
talk about the problems that we are now facing after years of 
positive reports about the climate in Iraq is very disturbing 
to me. It makes me remember the time during the Vietnam era and 
afterwards when my husband was in the military and we had many 
conversations listening to military people talk about what had 
gone wrong and what we were not allowed to do and, you know, 
how it ended ultimately.
    So we have been listening to this Administration talk about 
these great victories in Iraq, and then I listened to you 
talking about what we did wrong, and then we sort of summed it 
up saying, well, we can't go back in history, but we are going 
forward. And I would hope that we would have some eye on the 
present and the future and a voice so that we don't repeat this 
once again. It is so unfair to our military. It is so unfair to 
our Nation. And while we pay this great economic price and 
certainly a price in the world, we are also paying domestically 
here. Because whatever money is going into this problem now is 
being taken away from our children, our grandchildren, our 
senior citizens. So I have great concern about this.
    I also worry about our stop-loss policy and the impact on 
the military. I worry about who is speaking Arabic, who is 
communicating with the people on the ground there, and the 
shortage of people who speak Arabic in our military. I worry 
about the helmets and the other equipment. I think there is 
something tragic when you can go to a Web site and make a 
donation so that people will have proper helmets in Iraq. 
Something is very wrong.
    I also worry about how we use the word insurgency now. We 
used to talk about weapons of mass destruction, and that was 
the mission. And that then we talked about the mission of 
democracy. We didn't talk about insurgency. Now what I am 
hearing today is what we are hoping to do is stabilize Iraq not 
necessarily in a democracy but to stabilize them so we can 
leave. I can't help but remember that Iraq was stable even 
though Saddam Hussein was a bad man. If stability was the goal, 
they had that goal then.
    And my question to you--I appreciate you have been here for 
so long. We have all sat and learned a lot. We said that the 
mission was now stabilization and self-government. How will the 
military accomplish this without a political solution? And how 
will we get a political solution when we have factions that do 
not wish to be united? The truth of it is that when you look at 
the Shi'a and you look at the Sunni, they are not interested in 
working together. We now have a plan, an escalation plan that 
once again talks in glowing terms about these groups working 
together; and I want to know what is different now? What has 
made this plan different? We still hear and read in the papers 
that the Sunnis and the Shi'as are not getting along.
    And I thank you again for your service and for your 
attempts to work out a solution here.
    General Schoomaker. I would like to start at the beginning 
of your comment, which was part of your question. First of all, 
anybody that is donating money for our soldiers in the United 
States Army and I am sure for the Marine Corps for the helmet 
is being ripped off. We are giving every soldier that is going 
into Iraq the very best helmet that we have. It is being fitted 
properly, and there is no reason for anybody to do that. Same 
thing with body armor. That is a rip-off.
    Second, I will tell you that the United States of America 
today, right now, even with the supplement, is spending less as 
a percent of gross domestic product in time of war than it ever 
has in its history since World War II. We are not overspending 
on our defense.
    Third thing I will say, we can't go back and ring the bell 
again. That is for sure. But we don't want to ring the bell 
again the same way in the future. So we ought to learn from 
where we have been, and that is what we are trying to do.
    Last, directly to your question, the challenge is going to 
be this rationalization. It is going to take a long time. The 
Iraqis that I have spoken to believe they can make some of 
these accommodations, but it is going to take time. And I agree 
with you. I think these are very deep seated. I think it is a 
very tough challenge that we have ahead. But it is going to 
have to be Iraqi political accommodation, and we are going to 
have to help them establish the environment in which that 
happens to take place, and that is what this is all about.
    The Chairman. I thank the gentlelady, and we are running 
out of time in two seconds.
    Ms. Shea-Porter. I do believe in the strong defense, for 
the record, but I am concerned that we are directing the money 
in the wrong place. My understanding--and I may be wrong--but 
in Baghdad, in that area in Iraq, that it is only three percent 
al Qaeda. Is that accurate?
    General Schoomaker. I don't know what the percentage is 
there. I know that----
    The Chairman. Mrs. Davis of California.
    Ms. Davis of California. Thank you, Mr. Chairman; and thank 
you, General Schoomaker and General Conway, for being here 
throughout the morning. I wanted to follow up very briefly with 
one point that was made and then move on quickly, I hope, to 
the other panel.
    We talked about the surge. You used the word ``plus-up.'' I 
am wondering if you could give us your best estimate of how 
long a plus-up--and it might be on several different levels--
could be occurring so that that payback that you talked about, 
the ability from a readiness standpoint to be prepared for 
either another conflict or more escalation in Iraq or 
Afghanistan, would be doable. What are the outer limits? Can 
you give us a sense of that?
    General Conway. We don't know for sure what the intent is 
going to be, because we don't know how the plan is going to 
evolve, what the success is, the issues are going to be with 
that. We are projecting at this point an eight battalion base. 
We are saying, okay, if this is indeed a plus-up and the next 
rotation requires eight battalions instead of six, how are we 
going to get there from here?
    Ms. Davis of California. Is there a time that you are 
looking at, without being totally specific? But this could go 
on for six months, a year. I am concerned about that payback 
time that you talked about.
    General Conway. Our hope that it is abbreviated through the 
degree that it is six or seven months, ideally not more than 
that. That then would represent it as a surge, as opposed to 
the plus-up; and I think you understand the difference.
    But our hope is we can get back to a more normal deployment 
cycle simply because it, again, enhances our actual time for 
our great Marines and sailors at home. That is yet to be 
determined, based upon the outcome of the situation.
    General Schoomaker. I would like to answer it this way. 
This is a zero sum game. We have what we have. It is either 
going to be in this corner or that corner or somewhere. 
Wherever we push it, there is going to be less where we took it 
from. And my view is that our capacity makes it especially 
important that we have got this reserve component mobilization 
policy and that we are doing the investments we are making in 
our reserve components, 55 percent of the Army, because that is 
where we are going to have to go on this.
    Ms. Davis of California. This may not necessarily be only 
in your jurisdiction, but can we do the embedding and the 
training of Iraqi soldiers at the same time that we do the 
plus-ups?
    General Conway. General Casey's intent, and I suspect it 
will be carried over to General Petraeus, you will have the 
embedding accomplished by the organic units, those who are in 
the country. They will provide for the training teams as well 
as the partnerships for the adjoining Iraqi units.
    Ms. Davis of California. May I move to the health of the 
Marines, Army, particularly in the area of mental health? I 
know that we are going to have a secondary panel coming in, and 
I hope that we will have a chance to focus on the families as 
well.
    How do you see that we have approximately 20 percent, as I 
understand it, of soldiers coming out of Iraq and Afghanistan 
with Post-Traumatic Stress syndrome (PTSD)? Some of them 
apparently are going back into the field. With Marines, we know 
that, you know, it is still--there is a stigma of mental 
illness in the Marines. How do you see that? What kind of 
emphasis are you putting on this issue so that we actually have 
people returning healthy or coming home and finding a healthy 
path to a more productive life?
    General Conway. We are attacking on all fronts. And we 
consider that a head injury is as significant as a loss of a 
limb, both with PTSD and with traumatic brain injuries. The IED 
is a significant weapon. The head injury is a significant 
injury that we see coming out of it, and we have to get out of 
the stigma associated with it.
    It is true at the troop level as well as, unfortunately, 
true in some cases with the leadership; and we are working 
heavily from a medical perspective, from a leadership 
perspective, from all kinds of screenings taking place before 
and after you are in theater, is to identify and then treat to 
get these people back on board as soon as we can.
    Ms. Davis of California. Do you feel there is enough out 
there for families so their partners--they feel these are 
partners in this? Do you expect that is what families would 
say?
    General Conway. I would like you to pose that question to 
the family members here today, and I hope they are seeing the 
efforts we are bringing forward. What we do know, it is real, 
and it is going to be a serious concern if we don't address it.
    Ms. Davis of California. I know our veterans group in San 
Diego have coined a phrase. It is, ``This is a military at war, 
not a national war.'' is that something that you would sense is 
true?
    General Conway. Yes, ma'am.
    Ms. Davis of California. Thank you.
    The Chairman. Thank the gentlewoman.
    We have gone through all of those eligible to ask 
questions, and I will ask the next panel to step forward.
    First, let me thank General Schoomaker and General Conway, 
not just for your time but for your service. We appreciate it 
very much.
    One last comment. General Conway, you were speaking about 
head injuries. There is an ongoing study at Bethesda headed by 
Dr. DeGraba regarding head injuries. Are you familiar with 
that? Would you be kind enough to furnish this committee with 
an update and see what, if anything, Congress needs to be doing 
to further that head injury study that Dr. DeGraba is heading 
up?
    General Conway. Absolutely sir.
    The Chairman. I have had some conversations with him.
    [The information referred to can be found in the Appendix 
beginning on page 99.]
    The Chairman. Thank you both. I appreciate you being with 
us.
    First Sergeant Allison and Mrs. Zimmerman and Mrs. Shuster, 
we welcome you and thank you and your family's support of our 
country. If any of you three have opening statements, we will 
welcome them, of course.
    Sergeant Ciaran Allison is about to redeploy to Iraq. We 
also have our military spouses whose husbands are serving in 
the 3rd Battalion, 4th Marines out of Twentynine Palms in 
California and are being extended here in Iraq. So we ask you 
to take the witness table.

STATEMENT OF ARMY FIRST SGT. CIARAN T. ALLISON, A CO. 2-23 IN, 
  FT. LEWIS, WASHINGTON, U.S. ARMY; ANEL ZIMMERMAN, SPOUSE OF 
    GUNNERY SGT. CHAD ZIMMERMAN FROM THE 3RD BATTALION, 4TH 
MARINES, TWENTYNINE PALMS, CALIFORNIA; AND CORI SHUSTER, SPOUSE 
OF LT. COL. SCOTT SHUSTER, COMMANDING OFFICER OF 3RD BATTALION, 
           4TH MARINES, TWENTYNINE PALMS, CALIFORNIA

    The Chairman. First Sergeant.

   STATEMENT OF ARMY FIRST SGT. CIARAN T. ALLISON, U.S. ARMY

    Sergeant Allison. Mr. Chairman and distinguished members of 
the committee, thank you for the opportunity to discuss the 
region plus-up of forces into Iraq and the impact on my unit.
    My name is First Sergeant Ciaran Allison. I am the First 
Sergeant for Alpha Company, Ft. Lewis, Washington. I have been 
in the Army for 20 years. I am married, I have one child, and I 
have deployed numerous times in continuous operations 
throughout my career. This will be my second tour for Operation 
Iraqi Freedom.
    The majority of the junior enlisted soldiers in my company 
have not deployed in the past but are well-trained and 
equipped. However, 70 percent of the leadership are combat 
veterans. The change in our deployment timeline has had a 
minimal impact of our training and readiness. In fact, due to 
some of the changes in training location, married soldiers have 
more time to spend with their families before departing to 
Iraq.
    Once again, thank you for the opportunity to appear before 
you today, and I look forward to your questions.
    The Chairman. Thank you.
    Mrs. Zimmerman.

   STATEMENT OF ANEL ZIMMERMAN, SPOUSE OF GUNNERY SGT. CHAD 
   ZIMMERMAN FROM THE 3RD BATTALION, 4TH MARINES, TWENTYNINE 
                       PALMS, CALIFORNIA

    Mrs. Zimmerman. Hello, my name is Anel Zimmerman. I am the 
proud wife of Gunnery Sergeant Chad Zimmerman. We have been 
married for ten years; and we have one daughter, Ashley, who is 
nine. My husband is currently serving in Iraq and has proudly 
served in the Marines for 12 years. We have been stationed in 
Twentynine Palms, California, for almost three years; and we 
are on our third deployment.
    These deployments, even though they are part of the 
military duty, cause an emotional hardship for the Marine, the 
family members, and friends. One of the hardest things that I 
and many spouses have had to learn to do is adjust to is having 
a single parent's lifestyle.
    It is particularly hard for us as military families to 
shelter our children from the media and constant negativity of 
war. It is hard for our children to understand why one or both 
of their parents are not at home. Without the negative outside 
influences, my daughter is a big daddy's girl and is very proud 
of what her daddy does, but she often finds herself wishing 
that her daddy would be home more often.
    Something that would really help families cope a little bit 
better, if the military member would spend more time at home. 
Right now, they spend more time being gone than at home.
    I always hear people saying how high the divorce rate is 
within the military. Maybe more time at home is a step forward 
to helping families bond and learn to be a family again. 
Marriage is hard work. But being married to someone in the 
military is the hardest job, is one of the toughest jobs, 
because we have to learn to adapt to physical and emotional 
changes on a periodic basis.
    But it also has its privileges. When I married my husband, 
I didn't realize that I wasn't just marrying one individual; I 
was marrying the whole Marine Corps. As a Key Volunteer 
Coordinator, I have learned that new spouses didn't always have 
a good grasp as to what military life is like. I don't think 
anyone or anything could ever prepare you to lead that 
lifestyle.
    Let me explain briefly what a Key Volunteer Coordinator is. 
My duty as a key duty coordinator is I provide feedback to the 
chain of command and try to keep my fellow spouses motivated. 
My duty also entails communicating official notices to the 
spouses. For example, I make ``all clear'' phone calls when, 
after an incident occurs that involves the battalion, I call 
spouses whose husbands were not involved and let them know 
that, if they had not been contacted by the Marine Corps 
already, their Marine is okay.
    We only make these phone calls after all of the official 
notifications to the families have been made and help us negate 
the shock value of what might be seen on the news.
    Of all of the previous deployments, me and other spouses 
feel this one is the hardest because of the extension. It was 
something none of us were prepared for. We had just gotten to 
that point where we could start counting down the months before 
our Marines would be home.
    When I got the news about the extension, I cried and was 
upset at first. But then I had to prepare myself to do the most 
two difficult things of all: The first one was the hardest of 
them all because I knew I would break my daughter's heart. At 
first, I wasn't sure as to how I was going to tell her. But I 
just came out and said, ``Baby, I need to tell you something,'' 
and I proceeded to tell her that her daddy wasn't coming home 
when we were expecting him to three months later. She cried a 
lot, and all I could do for her was to hold her and explain 
that we would continue to pray for Daddy to be safe. I also let 
her know that the situation could have been worse.
    My second hard task was to make those phone calls where I 
would have to tell one spouse after another that their Marine 
was not coming home until later. I got some mixed reactions. 
Some were sad and hung up the phone on me, and others just 
cried and agreed it could be worse.
    They also asked me as to how I told my daughter because 
they didn't know how they were going to tell their children. 
Some children are too young to understand, but the older ones 
know exactly why their fathers' tour has been extended and 
worry even more.
    Ashley and I are fortunate because I can work at her 
school, Twentynine Palms Elementary. We have the same schedule 
that allows me to provide some sort of stability for her. There 
is a good support system there because the majority of 
employees and children that attend the school are in the 
military. We are proud of what our Marines do.
    Now I would like to leave you with my husband's favorite 
quote by Ronald Reagan. ``Some people spend an entire lifetime 
wondering if they made a difference in the world, but the 
Marines--and I would like to add their families--don't have 
that problem.''
    Thank you.
    The Chairman. Mrs. Shuster.
    Mrs. Shuster. I don't have a prepared statement, but I 
would be happy to answer any questions you might have.
    The Chairman. Thank you.
    Mrs. Zimmerman, let me ask a question, if I may. Your 
daughter is nine?
    Mrs. Zimmerman. Yes, sir.
    The Chairman. And this is your husband's third deployment 
to Iraq; is that correct?
    Mrs. Zimmerman. Yes, sir.
    The Chairman. And how long was the first one?
    Mrs. Zimmerman. The first one was a couple of months. We 
had just gotten to Twentynine Palms and about a month--not even 
a month later we found out that he would have to go.
    The Chairman. And then how long was he there the first 
time?
    Mrs. Zimmerman. For about four months.
    The Chairman. And then the second time?
    Mrs. Zimmerman. I believe it was seven months.
    The Chairman. And how much time was there between the two?
    Mrs. Zimmerman. It was about six months.
    The Chairman. Between the second tour and third tour, how 
much time?
    Mrs. Zimmerman. Almost seven months.
    The Chairman. This is your husband's third time, and he has 
been extended?
    Mrs. Zimmerman. Yes.
    The Chairman. You said something about the divorce rate. 
Have you experienced colleagues and their spouses having 
marital problems?
    Mrs. Zimmerman. Yes, sir.
    The Chairman. Are you in a position to comment on that?
    Mrs. Zimmerman.Not really. It is just a really, really 
tough place to be at.
    The Chairman. Sergeant Allison, you are getting ready to 
serve your second tour; is that correct?
    Sergeant Allison. Yes, sir.
    The Chairman. You were there from 2003 to 2004; is that 
correct?
    Sergeant Allison. Yes, sir.
    The Chairman. You have a family?
    Sergeant Allison. Yes, sir.
    The Chairman. How does your deployment affect your family?
    Sergeant Allison. Same as any other family, sir. My wife, 
obviously, now becomes a single parent. My son has to, you 
know, go without his father for a year or longer, and it is 
just hard on the families. But my wife is a great lady, and we 
have a pretty good FRG group, Family Readiness Group, that 
works well together. They are working, trying to build it and 
make it stronger, so we just have to deal with it.
    The Chairman. Mrs. Shuster, your husband is a commander of 
a battalion; is that correct?
    Mrs. Shuster. Yes, it is.
    The Chairman. Can you share with us what challenges the 
families in your battalion face during deployment?
    Mrs. Shuster. Well, I think it is pretty self-evident. You 
can probably figure out a lot of it just intuitively. 
Separation is hard, but when they are in a combat zone, you 
have got concerns for their safety, which causes a great deal 
of added anxiety.
    Communication is much better than it was years ago, so that 
is definitely a help. A lot of people are able to speak by 
phone or e-mail to their loved ones, so that is helpful. But 
the stress of the constant coverage does make it difficult. 
Information is a good thing, but it is double-edged.
    So I think a lot of their concerns are all the information 
that they get almost hour by hour: Does it involve my husband? 
Does it not? Will I get that knock at my door? It causes a lot 
of stress, especially for those who don't have a support 
network, who are more isolated.
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman. I can remember being 
called by my daughter-in-law when my son was in Fallujah, and 
she had a camera stuck in her face coming out of the commissary 
there at Camp Pendleton, and she was asked the profound 
question, ``Are you worried?''
    I remember the consequences of all of us traveling up to 
Camp Pendleton and living there in Marine housing there with 
our family.
    Let me ask you, both of you, a question. I know Marine life 
is tough, first, Mrs. Zimmerman, whether or not you are in a 
war like the one we are in Iraq and Afghanistan. When we first 
became a Marine family, everybody talked about the float. If 
you went into the Marines, you were going to go on a float. 
That is, basically, they are like a police car that patrols 
some bad areas of town. You are always--we always have Marine 
Expeditionary Units (MEU) patrolling tough areas of the world 
where, if an embassy gets attacked or a contingency happens or 
a revolution starts that endangers American interests or 
American citizens, they have to be right there where they can 
come off those landing ships and move a MEU, Marine 
Expeditionary Unit, or a component of that into the fight.
    So you have got these long periods of time when Marines are 
gone. As I understand it--correct me if I am wrong--most of the 
floats are around, as I understand, five or six months. Is that 
right?
    Mrs. Zimmerman. They are about six to seven months.
    Mr. Hunter. Six to seven months. So instead of going on a 
float now, folks go into theater. Our son never went on his 
float because he went to Iraq instead.
    Do you see--did the floats themselves--if you don't have an 
Iraq or have an Afghanistan, do the floats, that separation--is 
it your experience that they also can be pretty tough and 
pretty trying on families?
    Mrs. Zimmerman. Yes, sir, they can be, but regardless, they 
are still gone, so they are not there.
    The only thing with the Iraq thing is, you know, the danger 
is more there. You are more aware of what the danger is.
    Mr. Hunter. Okay.
    Sergeant, everybody in the Army is familiar now with the 
fact that there is a difference of rotation between the Army 
and the Marine Corps. The Army has a one-year deployment or 
more, the Marines, seven months, so seven months on, seven 
months back, seven months back again.
    There has been a lot of talk in the Army about adopting the 
Marine pattern, the seven-month pattern. What do you think? 
From a family standpoint, do you think that would be helpful, 
and maybe, Mrs. Shuster, if you have got a comment on that, 
maybe you could comment, too. What do you think, Sergeant?
    Sergeant Allison. Well, sir, obviously, shorter tours on 
easier on the family. So, of course, any cut in the length of 
the tours--but there is also a tactical side to that, where a 
longer tour gives the guys on the ground more experience. So if 
you pull guys out earlier, that means you have to put another 
unit in that doesn't have the same feel for that area.
    But definitely, for the families, it is easier for them.
    Mr. Hunter. Mrs. Shuster, do you have any thoughts on that?
    Mrs. Shuster. Well, actually, I do, because normally the 
Marines are out for about six to seven months, but my husband 
was on division staff in 2004 and 2005 and was gone for a year. 
So I have actually had the privilege of having a year 
separation versus seven months.
    I can absolutely tell you, seven months is easier. Even if 
they are only home for a short time, when they get back--that 
year was tough, that extra few months was extremely difficult 
for me personally. I suppose it would be different for 
everybody, but that would be my experience, is that the year 
was really tough. It was extremely difficult on the kids.
    If the Army could, you know, shorten their deployments, you 
know, then I think they should try, although I have no idea if 
that is feasible.
    Mr. Hunter. Okay. Well, I know the Army is always looking--
or the Marines are always looking for a few good Army leaders 
to follow their example, so at some point--but in seriousness, 
I know that has been a matter of discussion in the Army, and I 
know they have examined the rotation with respect to the 
family.
    We may be needing to look at that in the near future. Thank 
you, ladies, and Sergeant.
    The Chairman. Thank you very much.
    Mr. Ortiz.
    Mr. Ortiz. Thank you so much. I think that we have heard 
some very moving and touching testimony by all of you today. 
You know, there is a saying that when a young soldier enlists--
maybe he is not married, maybe he doesn't have children, and 
they say that maybe the first enlistment, you know, you do it 
on your own. But the second one, we try to make it comfortable 
for the families, because you have to be sure that the families 
agree on your second or your third reenlistment.
    A lot of people do not understand the sacrifices that you 
go through, the stress that you go through and the waiting.
    Nowadays, when you see the battles right on TV--let me say 
that, do you think that we are making life comfortable now? Are 
we providing the medical services that we should, that your 
husband has earned? Are we providing adequate housing?
    I know the years back in the Bosnia war, I was getting 
calls from the families, from the wives, who were saying--or 
their husbands, ``We are in Bosnia fighting in war, and then we 
have to worry about our families who are taking care of the 
plumbing and the electricity because it doesn't work.''
    Maybe you can give us a little better insight as to what we 
can do as a Congress to make life more bearable, more 
comfortable, because you earned it; you deserve it. Your 
husband is there fighting for you, for our country. Maybe you 
can give us a little insight as to some of the things we can 
do, including you, First Sergeant.
    We are here, and let me tell you that we enjoy the freedoms 
that we have today because of the sacrifices and dedication and 
loyalty and commitment from the troops who are out there trying 
to keep our country safe.
    Sergeant Allison. Well, sir, as far as the medical side, I 
know a lot of the Army doctors are now included in the 
rotations, too, so, obviously, that pulls them out of the 
hospitals. I know my wife has experienced--she went to the 
hospital and couldn't be seen because that specific doctor 
wasn't available. But that is part of the problem, that doctors 
are needed for the wounded in theater, too, so there is that 
problem.
    As far as the housing goes, I know in Fort Lewis, they are 
building new houses, and the housing that, when I lived on 
post, was adequate, but, of course, I was a senior non-
commissioned officer (NCO). I know some of the older housing is 
old and needs to be replaced, and they have a building project 
on Fort Lewis now.
    So as far as the Congress, as far as any help that you 
could give in that area as far as subsidizing additional 
upgrades to enlisted housing would be greatly appreciated.
    Mrs. Shuster. I would agree that making sure that hospitals 
are fully staffed, because sometimes you can't get an 
appointment because people have been rotated out, because they 
need to go and serve as well. That can be very frustrating, 
obviously, as a mom, when you are trying to get your child an 
appointment. I don't know what you could do about it, to be 
very frank with you. I don't know what powers you might have. 
But certainly making sure that the hospitals are staffed so 
that we can get the appointments we need.
    Housing, I think, at least where I have been, has been 
adequate. I do know that some women have to deal with moving 
during a husband's deployment, maybe from an old house to a 
renovated house, facilitating it so they get the movers there, 
get the help they need, would be critical.
    Again, I don't know what you could do to facilitate that, 
but that can be a problem during a combat deployment, moving 
issues from house to house on base. But the housing itself for 
me has been adequate. Maintenance has been prompt. I haven't 
had any concerns whatsoever on that score.
    Mr. Ortiz. Mrs. Zimmerman.
    Mrs. Zimmerman. I agree. I have had no problems, but the 
medical thing is the biggest issue with the doctors rotating 
also, and the housing has been adequate and Twentynine Palms is 
working on building new housing, so they are working on it.
    Mr. Ortiz. So there is a great need because doctors, when 
they are activated or they move, then the family stays behind, 
and you don't have sufficient staff to attend to the needs of 
the families.
    Mrs. Zimmerman. Correct.
    Mrs. Shuster. Correct.
    Mr. Ortiz. My time is up, but I want to say, thank you so 
much for what you do and the sacrifices that you go through, 
all of you three there. Thank you so much.
    Thank you, Mr. Chairman.
    The Chairman. Are you saying that there is a shortage of 
doctors while your spouses----
    Mrs. Shuster. Well, I know sometimes getting appointments, 
they will tell me, because we are short-staffed because of 
people rotating out and what not is the reason why you might 
not be able to get an appointment promptly. Yes, that is what I 
have heard.
    The Chairman. Mrs. Zimmerman.
    Mrs. Zimmerman. I guess it would also depend on the urgent 
care of what you need to go in for. If your child is running a 
fever and stuff, there are times when they don't have 
appointments until a couple days later. If it is a couple days 
later, it doesn't really do you any good at that point.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you all for being here today. I have a 
son--as you talk about health care--who is a lieutenant in the 
Navy in the Medical Corps. I am really interested in your 
testimony, and I am very grateful for his service in 
Connecticut right now, although he really enjoyed being in 
California.
    Mrs. Shuster. Who wouldn't?
    Mr. Wilson. I have missed much of the testimony, but in 
regard to the Medical Corps, do you have any suggestions? And I 
know that you have discussed, too, First Sergeant, the housing. 
Do you all have suggestions on how this can be improved for 
families?
    Sergeant Allison. I think the biggest area where they are 
suffering is in the specialty fields. I know general care or a 
family practice, there may be enough physicians assistants 
(PAs) available to help out. But when you start getting into 
orthopedics and the specialty fields, that is where the 
shortages are coming in. So if a wife or family member has to 
go to a hospital for a specialty, then the solution might be to 
outsource, bring in some civilians to fill up some of the 
shifts so that the family members can actually get in and be 
seen.
    Mrs. Shuster. Yes, access to care is probably--I don't know 
that I have a lot of suggestions to give you, but I can tell 
you, access to care is probably, especially, the mom's number 
one issue.
    You know, like Anel said, when your child is sick with a 
fever and you can't get an appointment for two days, it doesn't 
do you much good. I don't really know what the answer is, other 
than staffing, and maybe outsourcing would be a good idea. It 
can just be frustrating, that is for sure. I don't have any 
smart answers for you.
    Mr. Wilson. Then with the indeterminate use, I appreciate 
your bringing up about outsourcing, with the fluctuation and 
change of season, and the different health issue. Fortunately, 
we have a doctor here with us right in front of me, Dr. Phil 
Gingrey, so he can bring issues to mind for us. Again, thank 
you for your service. We are just grateful for military 
families.
    Anyway, this committee, we have got wonderful people in the 
committee who would want to be helpful to you and our 
constituents.
    I yield.
    The Chairman. Thank you so much.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    I want to thank our panel. I am sorry it took so long to 
get to you. I want to let you know how grateful we are for your 
service and for your families' service.
    Sergeant Allison, to follow up on the medical care, I have 
got to guess that, in the course of your service, you have had 
some people in your unit injured. I am curious, as they get 
back to you, as they stay in touch with you, what are they 
saying about the kind of care they are getting, either through 
the military, the hospital system or the Veterans' 
Administration?
    Sergeant Allison. Well, sir, I have had some--the unit I am 
in right now is a standup unit, so I have had some NCOs and 
personnel that have come to the unit, that have sustained 
wounds in Iraq. And their followup care has been excellent, 
through physiotherapy, the doctors, and now they are back to 
full health.
    Soldiers, in the past, their care has been outstanding, and 
they are either out of the military medically now because they 
can't fully function. But their VA benefits followed them. Any 
surgeries they had to get through the VA was completed on time, 
and they got all their benefits.
    Mr. Taylor. I have only recently become aware of the ruling 
where I think, if a person is injured and is rated at less than 
30 percent disabled, that they can no longer stay in the 
TRICARE system.
    I am just curious, have you heard? I have heard this of 
some Guardsmen who were wounded in Iraq, who were medically 
discharged, and yet were not injured to a point where they 
could get a 30 percent or greater disability, and, therefore, 
they could not continue to buy into the TRICARE system.
    Is that a widespread problem, or is that fairly isolated?
    Sergeant Allison. I haven't heard that, sir.
    Mr. Taylor. Okay. The last question is going back to a 
follow-up to Mr. Johnson's question on the young people coming 
here with the GEDs as opposed to a high school diploma.
    You have obviously been in a long time, you have an 
extremely distinguished record. Mr. Arcangeli was an Army 
officer; he is the one who pointed it out, really, really 
impressive.
    I am curious, in your opinion, since you have been in--even 
before--of the quality of troops that you are serving with now, 
how would you rate them compared to the ones you were serving 
with in the late 1980's, 1990's and now?
    Sergeant Allison. I think there are two parts to it. I know 
somebody had mentioned earlier about technology. I know the 
soldiers coming in, especially the younger guys coming in now, 
don't have any problem adapting to the new technologies. They 
are pretty much weaned on computers now, so you have a new 
piece of technology, and they can figure it out, and they don't 
have a problem retaining that knowledge, regardless of their 
education level. Because, if they are not doing computers at 
school, they are on the computers at home now, and everything 
is pretty much Windows based any way.
    The other side is, physically, the soldiers coming in now 
aren't as tough as they were back in the 1980's, so it is 
almost a reversal; whereas, when I came in, technology scared 
me, but I was physically able to keep going.
    Now, technology doesn't scare them, but physically, they 
tend to break a little easier, so we have had to do a lot of 
more phased integration into physical training (PT). You just 
don't throw them into the mix and then try to break them off. 
You get them in slowly, or you are going to have shin splints 
and stress fractures.
    Does that answer your question, sir?
    Mr. Taylor. Absolutely.
    Ladies, I apologize for missing your testimony, but I am 
just curious, is there anything as far as the quality of life 
that we are missing that is not being addressed that you don't 
feel like--anything you feel like is getting worse that you 
feel needs to be turned around?
    Mrs. Shuster. No, nothing that I think is getting worse, 
no. I think for most wives, most spouses, I can't say wives, 
but spouses, just an acknowledgment of what they are going 
through, especially from people like you who do have a venue to 
speak, to print media, TV, whatnot, just what they are going 
through, to be acknowledged in that way goes very far in 
helping cope with things that can't be changed. I think that 
most of our families are getting what they need in a difficult 
situation, at least as far as I can see.
    But just acknowledgment of what they are going through 
would go a long way to help their other burden, I think.
    Mr. Taylor. Mrs. Zimmerman.
    Mrs. Zimmerman. I have to agree with her. Acknowledgment of 
what we go through is the biggest thing. But there is always 
room for improvement on different things. We can't complain 
because we are getting taken care of. But there is always room 
for improvements.
    Mr. Taylor. We thank all of you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Taylor.
    Let me ask one quick question of the First Sergeant. If it 
is taking longer to prepare a soldier because of shin splints 
and whatever the physical challenge might be, and they are 
getting deployed earlier, are they ready for a deployment?
    Sergeant Allison. Yes, sir, a lot of the newer soldiers, 
they go into standup units, so they get about two years to get 
ready. What I am saying is it takes them longer, what I meant 
was, back when we came in, we played a lot more sports before 
we came in the Army, so, physically, we were more able to 
endure; whereas soldiers now come in, they haven't played, you 
know, as many sports. So what we have to do is we have to get--
usually takes about six months during the training cycle to get 
them where we need to get them toughened up so that they are 
not getting injured as easily, because they are just not used 
to that much physical activity, but they are ready.
    The Chairman. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman, and thank you, all 
three, for being here today.
    First Sergeant, for your very noteworthy service, I 
appreciate your being here and you having served in Iraq 
before.
    Ladies, my hats off to you. I served a whole career in the 
Marine Corps on active duty, so my kids grew up with me in long 
separations in different places, Southeast Asia and places like 
that, so I have some sense of what that impact is. I know it is 
very tough on the children, at any age. It is very tough on the 
wife. When I was a group commander, my wife was, still, I think 
we called it key wife back in 1992 or 1993. It was her everyday 
job. But yours has been to stay in touch with the other 
spouses, the other wives.
    In those earlier years, when I was deployed for a year or 
so at a time, we communicated with the family by mail, and 
sometimes that mail didn't arrive until literally weeks after 
it was sent.
    Communications were very, very slow. Many things could 
happen between the time the letter was written and the time it 
arrived. It went both ways.
    By the time I was serving in Somalia, we had satellite 
phone, and occasionally somebody could get a call back and talk 
to one of the key wives, and they could communicate.
    Now my son has just returned this summer with his year in 
Iraq with the 101st--don't ask me how he is in the Army, and I 
spent time in the Marines--yes, exactly. I am very proud of 
him, by the way. But he spent a year over there, and he was 
communicating daily, for all practical purposes, through the 
Internet, telephones and so forth.
    My question to you, ladies, is how is that daily 
communication or more frequent communication, does that make 
your jobs easier or harder, or are you sort of chasing around 
more? What effect is that having? Either one.
    Mrs. Zimmerman.
    Mrs. Zimmerman. Honestly, I think it makes it a little bit 
more difficult for the simple fact that there is so much 
communication. When the guys have to go out for a mission or 
something, and you don't hear from them for days on end, then 
you get those phone calls. Well, how come my husband hasn't 
called me, it has been a week, even though it has been 
explained they are just so used to getting that frequent e-mail 
or phone call and stuff.
    So it kind of makes it harder because you have to keep 
reassuring them they are fine. You know, no news is always good 
news. So it kind of makes it harder in that aspect of it.
    Mr. Kline. Mrs. Shuster.
    Mrs. Shuster. Yes, I think it is a double-edged sword. My 
husband was in Desert Storm. Likewise, we communicated by 
letters. So this is better in that respect. I get to hear from 
him more frequently. But sometimes too much communication can 
be a bad thing. A lot of rumors can start. Well intentioned 
Marines and sailors will call home with all sorts of bits and 
pieces of information that then sort of morph into Lord knows 
what among the wives, so it can make rumor control more 
difficult.
    Mr. Kline. Are you finding then that communication, the 
sorting out of those, are you more--and the reassuring, is that 
falling heavily on you? Are you getting support from the 
command? I know when the battalion is deployed, you are sort of 
it.
    But I have always been a little bit concerned that we 
haven't made the connection very well between the active 
Marines, the people in uniform that are still back at 
Twentynine Palms or wherever the base is, and, you, the key 
wife coordinators or whatever that title is. It seems to me 
that the burden seems to fall on you to sort out those rumors.
    Can you, in a minute or so, talk about that?
    Mrs. Shuster. Well, I think some of it does fall on our 
shoulders, although we do have a great remain-behind element. 
We have a wonderful Family Readiness Officer, which all units 
have who are combat deployed. He is extremely helpful in 
helping us. So between the Family Readiness Officer, yes, we do 
try to keep rumor control to a minimum. But it does pretty much 
fall on us.
    That can be difficult. But, usually, communication between 
the unit in country and the FRO, the Family Readiness Officer 
and the key volunteer coordinator, or my case advisor, is very 
good. It is fluid, because communication is so good. So when 
rumors do crop up, it is usually pretty easy for us to get the 
straight scoop and to straighten it out. Sometimes it can be 
difficult, but it can usually be done pretty quickly.
    Mr. Kline. I see my time is expiring here. Let me just say 
again thank you to all three of you. God bless you.
    I yield back.
    The Chairman. The gentleman from Washington, Mr. Smith.
    Mr. Smith. Thank you, I apologize. I had another committee 
meeting at 1 and was unable to be here for the start. At this 
point, you have probably answered all the questions I would 
have.
    I just want to say thank you very much for coming back 
here. I know you have a lot of things to do in your life and 
taking the time to come back here and give us some of your 
firsthand experience. Some of the most valuable meetings I have 
had in my district are meeting with family members, both active 
duty, guard and reserve , to get an understanding of what they 
are going through, how this is impacting them and what their 
greatest concerns are.
    I particularly want to thank Sergeant Allison, who is from 
Fort Lewis, from my district, for his service.
    I don't really have any questions. I am sure my colleagues 
have covered most of them, but I just want to thank you for 
your service and for taking the time to come back here and talk 
to us and keep in touch with us about what we can do to help 
you.
    I guess if there is anything else that you wanted to add 
that you haven't had a chance to say, I am happy to hear that. 
But, otherwise, just thank you for the opportunity to come 
back.
    The Chairman. I thank the gentleman.
    Dr. Gingrey.
    Dr. Gingrey. Mr. Chairman, thank you.
    I would like to thank First Sergeant, Mrs. Zimmerman and 
Mrs. Shuster for being with us today.
    Mr. Chairman, I would like to thank you and the ranking 
member for having a hearing where we have these very important 
witnesses. We have lots of hearings where we hear from the 
really big brass, but it is a very important opportunity for us 
to hear from the families. I thank you, Sergeant, ladies, for 
your service. I know it is a great sacrifice, as you have 
described to us here over the past 45 minutes to an hour.
    I did want to ask a couple of specific questions. My good 
friend behind me blew my cover in regard to my former 
profession before I became a Member four years ago, but in that 
regard, I am going to direct the first question to Mrs. 
Zimmerman, when my soon-to-be wife 38 years ago met me in 
Atlanta and I had that starched white coat on and that 
stethoscope, I think she thought that was pretty attractive 
until after a few years of being up all night and working those 
terrible hours, and she was somewhat of a single mom as well in 
raising our four children.
    I am not going to put the question to her tonight, does she 
regret her decision to marry a doctor, but I will put the 
question to you: Here it is ten years later and you have a 
nine-year-old daughter that you told us about and some of the 
hardships that you have gone through during your marriage, and 
you have seen other wives go through, other spouses. Would you 
do it all over again?
    Mrs. Zimmerman. In a heartbeat.
    Dr. Gingrey. Absolutely, well, I am glad to hear that. I 
hope my wife would say the same thing. I trust maybe she would. 
The Colonel says he is going to ask that question of her.
    In regard to these morale, welfare, and recreation (MWR) 
issues, we talked about things like health care, education--
maybe we didn't discuss that--housing, recreation, commissary, 
base exchange (BX), post exchange (PX).
    Do you feel, Mrs. Shuster, from your perspective, that is 
pretty good, that is a pretty good benefit, that we are doing 
okay in regard to that?
    Mrs. Shuster. I think it is an excellent benefit, 
specifically the commissary. It is great. That is a huge, huge 
benefit to military families.
    There is so much else available, at least within the Marine 
Corps--I can't speak to the other branches--available to the 
families to help deal specifically with combat deployments or 
extensions.
    You know, counselors, chaplains are available. We had a 
town hall meeting, I think within ten days of the notification 
that we were extended, where the commanding officer of our 
regiment came and spoke with spouses, moms, dads, whoever was--
three, four--helped with questions. We had chaplains available, 
counselors that were available.
    There is a lot that is available through the Marine Corps 
right now that is helping these families cope. I have to say, I 
think it is pretty impressive. I am really pleased to see it. 
Again, our Family Readiness Officer is great. There are great 
Web sites.
    There is just a lot available right now if the wives and 
the moms and dads avail themselves of it. I am really pleased, 
because it is a difficult, difficult situation. But there is a 
lot out there to help you cope with it if you choose to use it.
    Dr. Gingrey. Well, I know all the members are pleased to 
hear that. We will continue to provide that for you.
    Sergeant Allison, I would just say that, in regard to the 
issue of the physical fitness, I am a former school board 
member, too, of a public school system back in my great State 
of Georgia, and I think part of the problem is having gone to 
having physical education as an elective. The kids are the not 
really required--and many of them don't want to change uniform, 
maybe for the girls, they don't want to take a shower in the 
middle of the day and mess up their hair.
    But for whatever reason, I think this is part of our 
problem, physical education. I think you stated that very well. 
I think they probably need to go back and make that mandatory 
for our school children.
    Thank you all very much. We really appreciate your service.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Before I call on Mrs. Davis, there is a saying that we have 
heard in this committee a good number of times: You recruit a 
soldier, but you reenlist a family. I assume all of you would 
agree with that.
    We had in our kitchen, to remind me of my lovely wife, a 
sign that said, if momma ain't happy, ain't nobody happy. I 
assume that is the situation with our spouses in the military.
    Mrs. Davis.
    Ms. Davis of California. Thank you, Mr. Chairman.
    I want to thank you for holding this hearing and having the 
panel, because I think that, at least in my experience here, we 
have not had the opportunity nearly as much as we should. I am 
not sure that I can remember any when we have had key 
volunteers here, you have such tremendous contact with the 
families and also just the folks that can come in and talk 
about their experiences that are not necessarily serving in a 
top leadership position, although, Sergeant, I really applaud 
the work that you have done, and I am very excited that you 
have had a chance to be here today.
    Could you share with us, a little bit, Mrs. Zimmerman, you 
mention in your opening remarks that you had been talking to 
families about the extension.
    I am wondering, why was that your job to do that, and did 
you have immediate backup for that? You mentioned ten days 
later that there was a town hall meeting.
    Was that your role? Perhaps people don't quite understand 
that you all serve as volunteers, that there is no compensation 
for what you do.
    My understanding, in working with our key volunteer in San 
Diego, you are essentially on call 24 hours and have very, very 
little support for that. I just want to acknowledge that and 
perhaps you can share with it as well.
    Again, was that your role, to let families know about this? 
Was that a tough role to have?
    Mrs. Zimmerman. It is a tough role to have. It is because I 
stay in contact with the wives that I am assigned. I stay in 
contact with them. I try to call them at least twice a month to 
see how they are doing, if they need anything, or just if they 
need to talk.
    So I am available to them. Yes, I did have the backup, I 
had Cori, and then I also had the key volunteer coordinator. 
That way, if I needed anything, she would back me up.
    But because we stay in contact with the wives and know them 
a little bit better, that is why we do that role.
    Ms. Davis of California. The Chair had just mentioned 
reenlistments. What kind of impact do you think these 
extensions are going to have on reenlistments, and, generally, 
what impact do you think the added stress is having on that? 
What do you hear from the families?
    Mrs. Zimmerman. Nothing really yet, because I don't think 
any of them are to the point of reenlisting. But from a 
personal basis, my husband just reenlisted, so, for my family, 
it hasn't really affected it. And some of the families haven't 
started to think that far in advance yet. They are just ready 
for them to come home.
    Mrs. Shuster. I would agree. I haven't heard anything from 
any of the wives I have spoken with about that. I would just 
imagine in a very practical way it might have an effect on 
whether someone will reenlist. Certain families might make a 
decision not to. I would assume that is just a part of life and 
part of dealing with something difficult.
    I think it is a matter of how the command deals with it. 
The command atmosphere has a lot to do with reenlistment, and a 
command atmosphere has a lot to do with how you take care of 
your families. That will be different in each unit, I expect. 
But in our unit, I have not heard, really, anything about 
problems with reenlistment because of this--a lot of questions 
about the extensions, certainly, but not about reenlistment per 
se.
    Ms. Davis of California. Could you speak about the overall 
health as well. I asked an earlier panel about Post-Traumatic 
Stress syndrome and the role that families are helping to 
identify, helping to talk through some of those issues, being 
woken in the middle of the night when there is a stress factor 
that arises.
    Can you tell us about your relationship then with other 
spouses and what you can--help us to understand, or what should 
we be doing with regard to that? Is a survey what is needed? 
Have you been given enough background in helping parents cope 
with this? What can you tell us?
    Mrs. Zimmerman. We always have the predeployment briefings, 
and we cover what to expect when they leave. When they come 
home we also have briefings to cover all those situations.
    They also give you some information to counseling services, 
or if you are really concerned, you know, what to do, what not 
to ask when they do come home, because that is the biggest 
thing, I think, that you have to give them their space to 
adjust to being at home, and not overwhelm them with questions, 
what did you do, what did you see, or anything like that.
    So, I mean, like my husband and I like to keep it, it is a 
need-to-know basis. So when he is ready to let me know, he will 
let me know.
    Mrs. Shuster. The return and reunion briefs are really 
great. Again, it is only for people who choose to go. You can't 
make people go. But they are available, and they are a great 
resource because there is a lot of information about what to 
expect. Like Anel said, interesting things about what not to 
ask us, to give time, to adjust to.
    The Chairman. Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman, ladies, First Sergeant. 
Thank you so much. Let me assure you and reassure you that 
everybody on this committee and throughout the Congress is 
extremely aware of the contribution and support that our men 
and women in uniform get from their families. We honestly, 
sincerely and just with no reservation at all want to be sure 
that we do everything and anything we can.
    I represent Fort Bragg and Pope Air Force Base, and I like 
that Airborne patch on your shoulder there, First Sergeant.
    The question has been asked in several ways about what can 
this Congress do to further assist. I hope you all consider 
that an open question that you can feed to us through your 
individual commands or through your specific representatives, 
because we are here to help and to serve.
    One of the things that I have found to be particularly 
helpful to family, someone was asking about deployment and the 
like when people are deployed. I think at Fort Bragg, Fort 
Lewis, and now Camp Pendleton and others, the areas, the 
residential community initiative, new, better, improved service 
and military housing has been a big plus for families.
    Are either you, Mrs. Shuster, or you, Mrs. Zimmerman, 
involved in any of the new projects, or do you have any 
thoughts or opinions on that?
    Mrs. Zimmerman. In Twentynine Palms, they are working on 
it. We are not necessarily involved with it. I know it will 
affect for now the housing where I live at, where they are 
going to turn it over, and they are going to move us into new 
housing that they just got done building. So they are working 
on it.
    Mr. Hayes. Is that something you are looking forward to?
    Mrs. Zimmerman. To the move itself, not really. The house 
to where I don't have to share a bathroom with my nine-year-
old, yes.
    Mr. Hayes. Three moves is equal to a fire, right?
    Mrs. Zimmerman. Yes, exactly.
    Mr. Hayes. Mrs. Shuster.
    Mrs. Shuster. Yes. We just moved from an old house to a 
renovated house on Camp Pendleton. The difference was 
remarkable and much appreciated. We have been in the Marine 
Corps 18-1/2 years. Housing hasn't always been the best.
    Mr. Hayes. Terrible.
    Mrs. Shuster. Shocking, but it hasn't been very good. Now 
they are addressing it at several bases. It is very welcome, 
and it seems to be progressing smoothly. So we really 
appreciate the up-to-code houses.
    Mr. Hayes. I am blatantly using you all as extra promotion 
to help those folks that don't see the experience on bases 
every day. I think your experience has been extremely helpful.
    Sergeant, have you had any experience there?
    Sergeant Allison. Well, sir, I lived on post at Fort Lewis, 
and after they did the handover to privatization. Then my base 
and housing allowance started showing up on my leave and 
earnings statement (LES), so that kind of gave me an incentive 
to buy my own house, so I moved off post.
    But while I was on post, the maintenance was on time when I 
needed it, and they were always making improvements in the 
privatization. As far as their maintenance has gone, it has 
been excellent. Like I said, they are always building more 
houses. They are always upgrading.
    Mr. Hayes. How long since you have been at Fort Bragg?
    Sergeant Allison. 1991, sir.
    Mr. Hayes. There have been some dramatic improvements 
there. Anyway, that has been something that we can really 
continue to emphasize.
    Is there anything that you would like to ask the panel or 
any points you would like to make with us? The Chairman has 
been kind enough to hold this very important hearing. Anything 
that you would like to answer that we have not asked, put it 
that way?
    Sergeant Allison. I would just like to say that even though 
our deployment timeline was moved forward, our training hasn't 
stopped. We haven't cut any corners on training to make that 
deadline. We have all the equipment we need, soldiers are fully 
trained, they are motivated, and they are ready to get over 
there and get after it.
    Mrs. Shuster. I just really appreciate Congress's interest 
in the health and well-being of our families, because I think 
we know that the Marines and soldiers are being supported, but 
it is nice to know that our concerns are important, and I think 
it is just a great opportunity, and I really appreciate it.
    Mr. Hayes. Thank you. It is intensely important to us. 
Don't ever hesitate to call your Representative or Senator or 
whatever. It is good for us, but there are folks who do not 
have posts or other facilities in their districts that don't 
sit here, but I can assure you, when I speak with them, they 
appreciate the value and input, and anything we can do to help 
you.
    Mr. Chairman, thank you. I yield back.
    The Chairman. Thank you. Before I call on Mrs. Gillibrand, 
I think, First Sergeant, I recognize a Bronze Star, am I 
correct? I don't have any other glasses on.
    Sergeant Allison. Yes, sir.
    The Chairman. You were also in Desert Storm?
    Sergeant Allison. Yes, sir.
    The Chairman. That was with the 82nd. How long was that 
deployment? You had both Desert Shield and Desert Storm, I take 
it.
    Sergeant Allison. Yes, sir, I was over in Iraq, Saudi 
Arabia-Iraq for nine months that time.
    The Chairman. You were deployed--how long on your first 
deployment during this operation?
    Sergeant Allison. A year, sir.
    The Chairman. A year. Okay.
    Mrs. Gillibrand.
    Mrs. Gillibrand. I thank you all of you for coming and for 
sharing your experiences with us. It is very important to us 
that we have your feedback as to how Congress is serving the 
military effectively.
    My question goes to health services when your loved ones 
return home, and the availability of both mental health 
services and accessibility to whatever your families need. Is 
that currently at the level that you would like?
    Mrs. Shuster. Yes, as far as, for when they get back and 
health services for them and for us, yes. In fact, it is a big 
focus, as I said earlier, in the return, of reunion briefs and 
so forth. It has been talked about a lot, and the family 
members and service members who need it are highly encouraged 
to pursue it. So it is being made available if possible as far 
as I can tell. I have not used it myself, but I think it seems 
to be adequate.
    Sergeant Allison. At Fort Lewis, there is a program called 
soldier assessment program. It is a pilot program. You take 
your survey with counselors and stuff like that. They keep your 
stuff on record.
    When you come back, they do another assessment. If there 
are any flags that come up, they will, like, push you into the 
counselors you need. Because one of the hardest parts of any 
post-traumatic stuff is actually, number one, identifying it 
and acknowledging that it exists. So getting those guys, if you 
can get them used to going in and talking to counselors, even 
before they--when they come back, then it is second nature to 
them; it is part of their reprocessing back.
    Mrs. Gillibrand. So there are no undue waits that you know 
of.
    Sergeant Allison. As far as I know--I had a few soldiers 
that transferred into my unit that I identified as having some 
form of Post-Traumatic Stress or some problems, and I made them 
go up and see counselors. Sometimes you just have--you don't 
give them a choice. You tell them they are going, and they go.
    Mrs. Gillibrand. I read in some news articles because of 
the current stress on the deployment and the extensions and the 
fact that the rotations are not in the same levels that we 
wanted in terms of two to one as a ratio, now it is closer to 
one to one, is that having any impact in divorce rates amongst 
the families or any impact on domestic violence increases, or 
has it not changed and it is the same? Are there any things 
that have differed because of the extraordinary sacrifices we 
are asking of the troops and the families?
    Sergeant Allison. I think if you look at the statistics, 
the divorce rates are going up. It would be hard to say that 
they weren't related.
    I noticed, though, as far as the soldiers who have been 
married before the deployment started, are tending to stay 
together, because their marriages were formed previously. I 
think a lot of the newer soldiers who are coming into the Army, 
previously married, where they don't have the experience base 
of the Army, where the wives don't know what they are getting 
into; I think those are the wives that are suffering the most.
    Unfortunately, they are a lot of the younger wives who 
really don't want to have anything to do with the Family 
Readiness Groups. They are the ones who don't reach out for 
help. You really have to take that extra step and try to pull 
them in and identify them before you go. Otherwise, their 
marriages will suffer because their marriages are still 
forming, and they haven't got those bonds yet.
    Mrs. Zimmerman. I have to agree, because I deal with some 
of the wives, that they actually just got married either in 
June or July, right before the guy is deployed. So they are the 
ones that are having the toughest time trying to deal with it 
and tough, because they have never experienced anything.
    That is what I hear from them all the time, ``I didn't 
think it was going to be like this. I didn't realize it was 
going to be this hard.'' So that is the biggest problem right 
there, that is when they get married, so close to a deployment, 
or even because they are so young, they don't know what to 
expect.
    I don't think even, even if it is not your first time being 
in the military, your first four years, even if it is the 
following one, it is always hard, because it is a lifestyle.
    You have to adjust. Like I said before, nothing can prepare 
you for it. There is not anything anyone can ever do or say 
that will ever get you ready. You just have to learn to adjust 
and be prepared for it.
    Mrs. Gillibrand. Mrs. Shuster, you have been in the 
military for a while, your family. What's your experience with 
increases in domestic violence in terms of the families that 
you work with?
    Mrs. Shuster. I honestly wouldn't know. I haven't noticed 
any increase in any of the anecdotal evidence. I mean, I have 
no access to the statistics, so I really wouldn't know. But 
just what I hear, I haven't heard any different.
    The Chairman. I thank the gentlelady.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you. I want to say to this 
panel, you don't know how helpful--I am sure it has been said 
many times--I have left a couple of times--how helpful it is 
for us to hear from you.
    I represent the Third District of North Carolina, home of 
Camp Lejeune, Jarrett Bay Marine Air Station.
    Sergeant Allison, you have one child or two?
    Sergeant Allison. I have one child, sir.
    Mr. Jones. How old is he or she?
    Sergeant Allison. He is 11.
    Mr. Jones. Mrs. Zimmerman, you have a daughter, I believe 
you said.
    Mrs. Zimmerman. Yes, sir.
    Mr. Jones. One child. How old is she?
    Mrs. Zimmerman. She is nine as well.
    Mr. Jones. Mrs. Shuster, you and the Colonel, do you have 
family as well?
    Mrs. Shuster. Yes, we have two children, a daughter and a 
son, 17 and 14.
    Mr. Jones. Many of us on this committee are strong 
supporters of DOD schools. We have an excellent school system 
at Camp Lejeune. I will go down the road; have you ever had a 
child in an on-base school?
    First Sergeant.
    Sergeant Allison. Yes, sir, my son went to Fort Lewis.
    Mr. Jones. Now that you have moved, you are still at Fort 
Hood, but you are off base--you are at Fort Lewis now?
    Sergeant Allison. Fort Lewis, sir.
    Mr. Jones. When your son was attending that school, and 
maybe you were deployed or not deployed, do you feel that the 
environment at the on-base school is something very special for 
that child who has a mom or dad or maybe both that is in the 
military that has been deployed?
    Sergeant Allison. I think because it is a military school, 
all the kids, usually when a unit deploys, all the kids at that 
school are in the same boat so they can relate and they can 
help each other out. I have moved off post, and now my son goes 
to Thurston County school. One of my concerns is that when I 
go, he is not going to have the same support from his friends 
because they really can't relate. They are not military 
families, really don't relate.
    Our nonmilitary families don't relate to military families. 
So on-post schools, they really have a tendency to support each 
other with the kids. They are all going through the same thing.
    Mr. Jones. Mrs. Zimmerman, your child?
    Mrs. Zimmerman. My daughter has not attended a DOD school 
in Twentynine Palms. We do have a school on base, but it is not 
a DOD school. The base is split in half, so the public school 
she does go to, the majority of the students are military kids.
    Mr. Jones. Mrs. Shuster.
    Mrs. Shuster. Yes, my daughter attended a DOD school in 
Quantico, Virginia. I am so glad you brought it up. That is 
something that is near and dear to my heart. I wish there were 
more of them.
    I think it is a huge benefit to children. I think moving is 
an incredible stress on them. To be able to go into a school 
with other military kids, where there are no cliques, they 
immediately fit in, was huge for my daughter. If there is any 
way to get more of these schools instead of fewer, I would 
highly encourage it. It was wonderful for her.
    Mr. Jones. I want to say, I will be very brief, Mr. 
Chairman, because I know the other members have questions, in 
the 12 years I have been in office, that as a quality of life 
issue--that is why I appreciate, Mrs. Shuster, what you and 
Sergeant Allison have said--I felt, when I meet with those kids 
at school, shortly after we went in Iraq, it was already 
prearranged, I would speak to a ninth grade or senior class.
    I don't know, I got the feeling that day from the teachers 
that there is a special bonding, that I think you said, 
Sergeant Allison, as well as Mrs. Shuster, that those kids have 
somebody that might not be a family member that understands the 
pain of having a parent sent overseas for this country.
    I will tell you that I, along with many of my colleagues 
here on this committee, as long as we have a military, I will 
do everything I can to work with my colleagues to make sure 
that part of a quality-of-life issue is never taken away.
    Mrs. Shuster. Thank you very much.
    Mr. Jones. Thank you, ma'am. Thank you.
    Mr. Ortiz [presiding]. Ms. Bordallo.
    Ms. Bordallo. Thank you very much. I thank the Chairman, 
and I thank the witnesses, Mrs. Shuster, Mrs. Zimmerman and 
Sergeant Allison. I thank the witnesses very much for being 
here.
    It is rather unusual. It is such a privilege to have not 
just senior officers, generals and what have you, but those 
really on the front lines, our service members and their 
families. America has simply not heard enough from you. America 
can never thank you enough for your service and your sacrifice, 
but I know we all have limits, especially when the burden is 
being shared by so few.
    As you all intimately understand, the year 2007 will be 
marked by more tours of duty in Iraq and Afghanistan for U.S. 
fighting men and women. For some it will be their second, their 
third or fourth tours of duty.
    This is a lot to ask, even for the world's finest soldiers. 
So bless your hearts and their hearts. They serve proudly, and 
their morale remains generally very, very high.
    Now, the numbers of anniversaries and birthdays and births 
and first days of school and so much more missed cannot be 
imagined, and the pain and effects of those absences of fathers 
and mothers cannot be quantified.
    Just this past month, we buried, on Guam, Sergeant Jesse 
Castro, who returned home in a casket a hero but was never able 
to return home alive to meet his two week-old son, Jesse, Jr.
    Can you each share a story of something special your spouse 
has had to miss because of his or her service, and what you 
have done to cope with it? Also, can you tell us what your 
sense is of the efforts the services have undertaken to assist 
you during some of these tragedies.
    I will start with you, Mrs. Shuster.
    Mrs. Shuster. I think he has missed a lot in the last 18-1/
2 years. Probably my daughter's first birthday was very painful 
to me and her second and her eighth and her blah, blah, blah. 
That was very hard, because it was our first child, her first 
birthday, so that was tough.
    As to the second part of your question, what has been done 
to help us, I think, like I said earlier, the Marine Corps 
provides so many resources to help people cope that I really 
couldn't enumerate them all. But I think there are a lot of 
resources available for families. That is certainly true.
    Ms. Bordallo. Thank you very much.
    Mrs. Zimmerman. He has missed a little bit of everything, 
but I think I am mostly upset because he will be missing our 
tenth year wedding anniversary.
    Ms. Bordallo. Which year?
    Mrs. Zimmerman. This year. So that one I think I am more 
upset with him about, but there is nothing he can do about it.
    I agree with Mrs. Shuster, there is so much the Marine 
Corps does offer for the families and stuff. I know, in 
Twentynine Palms, they offer a lot of Operation Iraqi Freedom 
(OIF) concerts and stuff for the families to go out to and do, 
so there is a lot of those things the Marine Corps does offer. 
You just have to learn to take advantage of those things they 
do offer.
    Ms. Bordallo. Mrs. Zimmerman, you can have a later 
anniversary.
    Mrs. Zimmerman. Oh, yes.
    Ms. Bordallo. Delay it a little while.
    The other question I have does the volunteer role that a 
spouse plays as a family support group leader affect the 
ability of a spouse to hold their own independent career? Do 
you all believe that there are any career repercussions to 
senior officers in command whose wives have a career and 
therefore cannot or choose not to lead a unit family readiness 
group?
    Mrs. Shuster. Are you asking if it would affect my 
husband's career?
    Ms. Bordallo. Does it have any effect on your husband's 
military career if you are not active in readiness groups?
    Mrs. Shuster. None whatever. He said I am a Marine. You are 
not. Do what you like to do. Say no and decline what you don't 
want to do because nothing you say or do should affect my 
career. And if it does, I should get out.
    Mrs. Zimmerman. Same thing with my husband. He said it is 
up to me if I want to volunteer or not, and he said the same 
thing also. If it does start to affect his career then he does 
not need to be there.
    Ms. Bordallo. Sergeant, would you give me an idea of what 
percentage of women have separate careers that you know of, or 
is there any statistics on that.
    Mr. Allison. As it applies to them volunteering?
    Ms. Bordallo. Say the woman is a lawyer or she is a school 
teacher, a career, every-day career.
    Mr. Allison. There are a lot of the wives that are 
professional ladies. And that is probably the hardest part for 
an Army wife is to have a career because I know the places we 
stay is longer, but every three years, I pretty much move, 
which means a new job every three years, dental care, child 
care provider. Every time she went to a new post, it starts. 
The longer it is in one place gives them better opportunity to 
develop their career. And the professional ladies who are in, 
like, nationwide organizations can usually transfer within that 
organization, so that there is a lot of wives--I couldn't give 
you an actual percentage--but I have known plenty of wives who 
have careers.
    Ms. Bordallo. Thank you.
    The Chairman. We have three votes, Mr. Courtney. I think we 
can get your questions in prior to that.
    Mr. Courtney. Thank you, Mr. Chairman. And I will be quick.
    In risking asking a question that has already been asked. 
One issue that has come up with some families of soldiers who 
have been deployed over in Iraq is sort of the inconsistent 
ability to communicate electronically by e-mail or other 
communication, and I am just sort of wondering if that is a 
problem that you have ever experienced.
    Mrs. Zimmerman. No. My husband and I have an agreement to 
where I won't expect an e-mail or a phone call, but I think the 
biggest problem is too much communication and when they don't 
get it, then that is when they become sad and wonder why there 
is no communication. But it is understandable, under the 
conditions they are in, sometimes they have no way to 
communicate out. So it just needs to be understood that they 
are not like us where we have the capabilities to do it. And 
sometimes they don't.
    Mr. Allison. I agree with Mrs. Zimmerman. I think there is 
a too much communication now to the point where I mean I, 
personally, I hate talking on the phone. So I would call my 
wife maybe when I had something to say which may be every three 
or four days when I got the opportunity. But then there is guys 
who are calling their wives like twice a day, and then they go 
to the FRG place and they talk to my wife and they say, ``I 
talked to my wife twice a day,'' and next time I call her she 
says, ``Why don't you call me,'' and I say I have got nothing 
to say.
    The other side of the coin is sometimes there is 
information that gets back over the Internet, over the phones 
that should not have been released, that has to be released by 
the unit, specifically when you are talking about wounded or 
casualties. The last thing you want is that information getting 
back to a wife before the Marine Corps or the Army has the 
opportunity to inform that wife.
    So a lot of times you have to shut down the communications 
just to stop that. And there is just too much communication, 
because then the wives become dependent on getting a phone call 
every day, which is just not possible.
    Mr. Courtney. So it sounds like you really control the flow 
yourselves. I mean, it is not like there is any sort of 
mechanical or technology problems. I mean, there is no glitches 
as far as that is concerned. And if there was a family 
emergency like the hospitalization of a child, or, I mean, you 
just feel like unless somebody was in a really dangerous place 
and couldn't communicate with anybody, that information could 
get communicated pretty quickly?
    Mrs. Zimmerman. And we also have the American Red Cross 
that does those communications, too, which sometimes they will 
get it a lot faster than an e-mail or anything else.
    Mr. Courtney. Sergeant, real quick. The Seapower 
Subcommittee had a demonstration of the new body armor which 
was--looked very impressive. Your testimony was that you felt 
there wasn't any problems as far as adequate training or 
equipment for the troops there and I just, I mean, this is a 
very, I think, important issue for a lot of us to make sure 
that people have the absolute best equipment possible. I mean, 
you don't feel--again, there is any problem as far as getting 
that adequate state-of-the-art body armor?
    Mr. Allison. No. Actually, yesterday my unit drew the new 
Enhanced Small Arms Protective Inserts (ESAPI) plates, which is 
the new ones, and the side plates with the deltoid protectors. 
So I am going to have to go back and figure how I am going to 
get mine.
    Mr. Courtney. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    I have a very quick question. First Sergeant, you have 100 
percent of your unit assigned equipment before you go?
    Mr. Allison. As of this time, as far as communication and 
movement and vehicles, I have. The only weapons I am short are 
some grenade launchers. We are still short some of those. But 
that really doesn't affect our ability to conduct a mission, 
but that is some weapons that we still have to get.
    The Chairman. We are going to have to run to vote. We can't 
thank you enough for traveling, for being with us for your 
service. We wish you continued success and Godspeed.
    [Whereupon, at 2:05 p.m., the committee was adjourned.]


=======================================================================




                            A P P E N D I X

                            January 23, 2007

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 23, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 37307.001
    
    [GRAPHIC] [TIFF OMITTED] 37307.002
    
    [GRAPHIC] [TIFF OMITTED] 37307.003
    
    [GRAPHIC] [TIFF OMITTED] 37307.004
    
    [GRAPHIC] [TIFF OMITTED] 37307.005
    
    [GRAPHIC] [TIFF OMITTED] 37307.006
    
    [GRAPHIC] [TIFF OMITTED] 37307.007
    
    [GRAPHIC] [TIFF OMITTED] 37307.008
    
    [GRAPHIC] [TIFF OMITTED] 37307.009
    
    [GRAPHIC] [TIFF OMITTED] 37307.010
    
    [GRAPHIC] [TIFF OMITTED] 37307.011
    
    [GRAPHIC] [TIFF OMITTED] 37307.012
    
    [GRAPHIC] [TIFF OMITTED] 37307.013
    
    [GRAPHIC] [TIFF OMITTED] 37307.014
    
    [GRAPHIC] [TIFF OMITTED] 37307.015
    
    [GRAPHIC] [TIFF OMITTED] 37307.016
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            January 23, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 37307.017
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                            January 23, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. SKELTON

    Mr. Skelton. General Conway, you were speaking about head injuries. 
There is an ongoing study at Bethesda headed by Dr. DeGraba regarding 
head injuries. Are you familiar with that? Would you be kind enough to 
furnish this committee with an update and see what, if anything, 
Congress needs to be doing to further that head injury study that Dr. 
DeGraba is heading up?
    General Conway. Yes, we are familiar with Dr. DeGraba's research. 
The Bureau of Medicine and Surgery can provide an update on his current 
progress. The Marine Corps is willing to help in this research. We will 
ontact Dr. DeGraba to see if he needs any further support from the 
Marine Corps.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TAYLOR
    Mr. Taylor. I was really impressed with the Marine Corps general in 
charge of this program that not only gave us a target figure and target 
date for delivery--what is your target figure and what is your number 
of vehicles and what is your target date of delivery so that, 
hopefully, Congress can work with you to make this happen?
    General Schoomaker. Jointly with the Marine Corps, we are in the 
process of rapidly acquiring Mine Resistant Ambush Protected (MRAP) 
vehicles. The Services have documented a combined requirement for 6,738 
MRAP vehicles; of which the Army plans to procure 2,500. On November 9, 
2006, the U.S. Army and U.S. Marine Corps released a competitive 
Request for Proposals (RFP) The Services are awarding contracts to 
those with the greatest likelihood of meeting requirements. Testing is 
expected to take place from February through May 2007. The Army and 
Marines will place production orders with those contractors whose MRAP 
vehicles best meet survivability and other performance requirements in 
testing and have the capability to meet an aggressive production and 
delivery schedule. Army delivery from the contractor is projected to 
begin in fourth quarter of fiscal year 2007; this timeline is dependent 
on the receipt of funding by April 2007. The first fielding of Army 
procured MRAP, placed in the hands of Soldiers, is estimated to occur 
by October 1, 2007. Concurrently, the Army will continue to work with 
the Marines to develop a long-term solution to the requirement through 
the Joint Light Tactical Vehicle (JLTV) program.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MCHUGH
    Mr. McHugh. Some media reports allege that U.S. forces will be 
pulled or diverted from Afghanistan in order to sustain the increased 
troop levels in Iraq that have been proposed by the President. Are 
these reports accurate? How will U.S. force levels in Afghanistan now, 
as well as future U.S. force levels in Afghanistan, be changed as a 
result of increased U.S. force levels in Iraq?
    General Schoomaker. Force levels in Afghanistan will increase from 
the levels seen in November of 2006. This increase provides capability 
levels in Afghanistan that support the combatant commander's current 
and anticipated needs and does not affect the force requirements in 
Iraq.
    Mr. McHugh. Some media reports allege that U.S. forces will be 
pulled or diverted from Afghanistan in order to sustain the increased 
troop levels in Iraq that have been proposed by the President. Are 
these reports accurate? How will U.S. force levels in Afghanistan now, 
as well as future U.S. force levels in Afghanistan, be changed as a 
result of increased U.S. force levels in Iraq?
    General Conway. The Marine Corps does not have units in Afghanistan 
that will be affected by an proposed increase in troop levels in Iraq.
    Mr. McHugh. With regard to Afghanistan, I understand that the 
commander there believes additional forces are necessary and that the 
need will continue beyond the end of the four-month extension recently 
directed for a brigade of the 10th Mountain Division. Given the 
increased heavy demands on U.S. forces to meet expanded troop levels in 
Iraq, how does the U.S. plan to meet the continuing requirement for 
more forces in Iraq at the end of the extension of the brigade from the 
10th Mountain Division? If this spring and summer's expected increase 
in al Qaeda and Taliban operations demand a more robust response than 
currently projected, how will any additional troop requirements be met?
    General Schoomaker. The Secretary of Defense approved the extension 
of the 10th Mountain Division Brigade Combat Team currently in 
Afghanistan. This extension will provide the Army time to properly man, 
train, and equip the next-to-deploy units to support ongoing 
operations. The objective is to source this increased Operation 
Enduring Freedom requirement from the Army's rotational force pool and 
has been incorporated into future force rotation planning.
    Mr. McHugh. With regard to Afghanistan, I understand that the 
commander there believes additional forces are necessary and that the 
need will continue beyond the end of the four-month extension recently 
directed for a brigade of the 10th Mountain Division. Given the 
increased heavy demands on U.S. forces to meet expanded troop levels in 
Iraq, how does the U.S. plan to meet the continuing requirement for 
more forces in Iraq at the end of the extension of the brigade from the 
10th Mountain Division? If this spring and summer's expected increase 
in al Qaeda and Taliban operations demand a more robust response than 
currently projected, how will any additional troop requirements be met?
    General Schoomaker. The Marine Corps does not have units in 
Afghanistan that will be affected by an increase in troop levels in 
Iraq.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON
    Mr. Wilson. I am indeed, concerned for guard and reserve members as 
there is greater mobilization. Could both of you, particularly General 
Schoomaker, indicate are there any programs, are there any legislative 
initiatives being proposed to assist guard and reserve members? Their 
families, in terms of any benefits that are being proposed, or greater 
consideration for disruption of their employment? Obviously, an issue 
that always is near and dear to me and others is to provide for the 
retirement age to be reduced, not to apply to me, from 60 to 55. Are 
any of these going to be potentially enhanced this year?
    General Schoomaker. Currently, title 38 of the United States Code 
and the Uniformed Services Employment and Reemployment Rights Acts of 
1994 provide protection for guard and reserve members when absent from 
a position of civilian employment because of uniformed service. The 
National Committee for Employer Support of the guard and reserve 
assists Reserve Component (RC) members with reemployment problems that 
emerge as a result of their active military service. The Army does not 
have any proposed legislative initiative to amend or change the current 
laws on employment or reemployment rights for guard and reserve 
members.
    The Department of Defense (DOD) supports additional benefits for 
members who are bearing the burden of mobilization and deployments. DOD 
is establishing a comprehensive compensation plan for National Guard 
and reserve members required to deploy before their optimum respite has 
been completed and for frequency and duration of mobilizations.
    With regard to reducing the age for Ready Reserve members to become 
eligible to receive retired pay, the Department of Defense is deferring 
any changes to the guard and reserve member retirement system until 
completion of two reviews: The 10th Quadrennial Review of Military 
Compensation which is reviewing the military retirement system and the 
Commission on the guard and reserve which is reviewing pay and benefits 
provided to RC members.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. JOHNSON
    Mr. Johnson. I would like to know whether or not that figure is 
correct. Did you fail to achieve your goal for new recruit contracts by 
20,128 in 2006 fiscal year. Is that true or false?
    General Schoomaker. In FY 2006, the Active Component exceeded their 
recruiting mission at 100.1 percent while the Army National Guard 
(ARNG) and U.S. Army Reserve (USAR) fell short but achieved 99.5 
percent and 98.6 percent, respectively. The Army establishes a 
recruiting contract mission primarily as a forecasting gauge to ensure 
we attain the current year accessions necessary to execute our Military 
Manpower programs; second, this mission serves as a planning factor for 
building the following year's Future Soldier Entry pool. While we do 
monitor the contract mission achievement, we base success on having the 
requisite recruits in the force at the required time. The Army has 
achieved the annual recruiting accession mission five of the past six 
years (missed FY05), despite achieving our contract mission only two of 
those six years (FY02 & 03). In FY06, the Army had a contract shortfall 
of 19,571. Missing our annual contract mission is not necessarily 
indicative of pending accession mission failure. However, it is an 
indicator of the degree of difficulty our recruiters face in the 
current market.

                                  <all>

</pre></body></html>
